<html>
<title> - PARTNERING TO PREPARE: EXPANDING ACCESS TO HIGH QUALITY EARLY CHILDHOOD EDUCATION</title>
<body><pre>[Senate Hearing 111-1132]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1132

                    PARTNERING TO PREPARE: EXPANDING
                      ACCESS TO HIGH QUALITY EARLY
                          CHILDHOOD EDUCATION

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

  EXAMINING PARTNERING TO PREPARE OUR CHILDREN, FOCUSING ON EXPANDING 
            ACCESS TO HIGH QUALITY EARLY CHILDHOOD EDUCATION

                               __________

                    APRIL 6, 2010 (Morrisville, PA)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                  U.S. GOVERNMENT PRINTING OFFICE

75-566 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
SHERROD BROWN, Ohio                  ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania   LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina         TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                 PAT ROBERTS, Kansas
AL FRANKEN, Minnesota                
MICHAEL F. BENNET, Colorado          

                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)













                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, APRIL 6, 2010

                                                                   Page
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................     1
Yonson, Elizabeth, Superintendent, Morrisville School District, 
  Morrisville, PA................................................     3
Bowman, Melissa, Kindergarten Teacher, Morrisville School 
  District, Morrisville, PA......................................     5
Fina, Michele, Branch Director, Morrisville YMCA, Morrisville, PA     8
    Prepared statement...........................................    10
Ackerman, Debra J., Associate Director for Research, National 
  Institute for Early Education Research, Rutgers, the State 
  University of New Jersey, New Brunswick, NJ....................    12
    Prepared statement...........................................    14
Benso, Joan L., President and CEO, Pennsylvania Partnerships for 
  Children, Harrisburg, PA.......................................    20
    Prepared statement...........................................    22
Klunk, Todd, Acting Deputy Secretary, Office of Child Development 
  and Early Learning, Pennsylvania Departments of Public Welfare 
  and Education, Harrisburg, PA..................................    25
    Prepared statement...........................................    27

                                 (iii)

  

 
                    PARTNERING TO PREPARE: EXPANDING
                      ACCESS TO HIGH QUALITY EARLY
                          CHILDHOOD EDUCATION

                              ----------                              


                        THURSDAY, APRIL 6, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                   Morrisville, PA.
    The committee met, pursuant to notice, at 11:42 a.m. at 
Morrisville School District, 550 West Palmer Street, 
Morrisville, PA, Hon. Robert Casey, Jr., presiding.
    Present: Senator Casey.

                   Opening Statement of Senator Casey

    Senator Casey. Well, good afternoon, almost.
    First of all, I want to thank everyone for being here and 
call to order this hearing, which is the Health, Education, 
Labor, and Pensions Committee of the U.S. Senate. And in 
particular today we're going to be examining a number of 
questions, but here's the overall theme for today, which is, 
``Partnering to Prepare: Expanding Access to High Quality Early 
Childhood Education.''
    I do want to thank everyone for taking the time to be with 
us. I thank our witnesses, that I will be introducing 
individually, thank them for their presence, their testimony; 
in many cases, their scholarship and work in this field for 
many, many years. I want to thank the students, who are in the 
back of the room, for their presence here and listening to this 
testimony, which is about our future and about the kind of 
country we want to create because of the investments we should 
be making in early childhood education.
    I do want to thank the Morrisville School District and all 
those who made this possible, especially in light of the time 
change.
    I'm not going to provide a long opening statement. I just 
want to make a couple of comments, so we can get right to our 
witnesses. I was saying to our witnesses, a couple of minutes 
ago, one of the best parts about this hearing is that you'll 
hear from them and not from me. I'll have some questions and 
some comments, but I think it's very important that you hear 
from people that are in the trenches, so to speak, people who 
have substantial experience in education and, in particular, 
experience in early education and what it means to a child, 
what it means to that child's family, and, of course, what it 
means to our society and our economy.
    The way I look at these issues is very simple but, I think, 
very direct, and it is this, that every child born in America--
every single child born in America--has a light inside them. 
And for some children, that light will burn so brightly you 
won't be able to see it, it'll be so bright. It'll be blinding, 
because that child has advantages of one kind or another, the 
advantages of their circumstances, their family background, the 
condition into which they're born, and their own ability and 
aptitude. So, for some children, that light is so bright it's 
hard to even imagine.
    For other children, the light inside them burns a little 
less brightly because of circumstances beyond their control or 
because of other reasons.
    Our job, especially those who are elected to public 
office--no matter what office, no matter what level of 
government, one of the basic and fundamental obligations you 
have is to do everything possible to make sure that that light 
inside a child burns brightly to its full potential. For some, 
that potential will be boundless. For others, that potential 
will be more limited. But, whatever the limit of that 
potential, whatever the reach of that light, we have to make 
sure that that child is achieving that, and that that child's 
potential is realized.
    One of the best ways to do that is to make sure that we 
make investments in early education. I believe if we do at 
least three things to help our children, no matter who they 
are--and this is not limited to age or circumstance or income, 
but especially for low income children--if we give them early 
learning opportunities, like we're here to discuss today, if we 
make sure they have enough to eat and have nutrition, and 
third, if we give all the best that we can when it comes to 
healthcare.
    Fortunately, we've made dramatic advancements in the last 
10 to 15 years in healthcare; the Children's Health Insurance 
Program being the main example in that part of our strategy.
    Obviously, on nutrition and food security we've got a long 
way to go for a lot of children; too many of them don't have 
enough to eat.
    The issue that brings us together today, which is early 
education. We have tremendous examples, that you'll hear about 
today, in local communities across Pennsylvania and across the 
country. But, candidly, we're not doing enough. We don't have a 
national strategy for early education. It doesn't mean you 
won't recognize and be faithful to local control and local 
traditions and local designing of early education programs. 
But, we need a strategy that is national in scope, so that we 
can work with and reward States like Pennsylvania that are 
making tremendous advancements in early education.
    So, to that end, focusing on early education, I am honored 
to be able to join this panel of witnesses. And what I'll do is 
provide a very brief introduction of each witness, one after 
another, and then go to their testimony, so you'll be 
introduced to all of them at one time.
    First of all, I want to thank and commend Dr. Elizabeth 
Hammond Yonson, the superintendent here at Morrisville School 
District. Her testimony offers a background on the school 
district here in Morrisville, and an overview of the efforts to 
provide high quality pre-Kindergarten education.
    Next, we'll have Melissa Bowman. Melissa currently teaches 
kindergarten at Morrisville and has taught pre-K in both 
Philadelphia and Morrisville.
    Next, we'll have--Michele Fina, branch director of the 
Morrisville YMCA, which runs a pre-K program there. She'll be 
third.
    And then, fourth, Dr. Ackerman will provide a perspective 
on research, and we'll go to Dr. Ackerman's presentation in 
PowerPoint in front of us here.
    Next, Joan Benso, President and CEO of Pennsylvania 
Partnerships for Children, someone I've known a long, long 
time, someone who's been laboring in this vineyard, so to 
speak--I'll use a scriptural reference there--for many, many 
years, and she has been a tremendous leader, and recognized 
around the country for her leadership, in child advocacy, 
especially on the issues that we're talking about today.
    And, finally, Todd Klunk, the acting deputy secretary of 
the Office of Child Development and Early Learning. The office 
is headed by Harriet Dichter, another person I've known a long 
time, who has given us great leadership on these issues at the 
Department of Public Welfare and prior to her service in State 
government.
    So, that is our list of witnesses. And I'll make sure that 
we try to keep within our 5-minute rule. We'll be close to that 
rule. I have a gavel; I'll try not to use it. Our witnesses 
have promised to be true to that admonition.
    So, we'll start with Dr. Yonson, and then we'll go from 
there to our other witnesses.
    Doctor.

ELIZABETH YONSON, SUPERINTENDENT, MORRISVILLE SCHOOL DISTRICT, 
                        MORRISVILLE, PA

    Ms. Yonson. Thank you, Senator Casey, and welcome.
    My name is Dr. Elizabeth Hammond Yonson. I am the 
superintendent of the Morrisville Borough School District in 
Bucks County. I have been the superintendent for 6 years. 
Additionally, I serve as the co-chair of Pennsylvania's Pre-K 
Counts Advisory Council, as a member of Pennsylvania's Early 
Learning Council, and the United Way's Success by Six Council. 
As a superintendent, I believe early childhood education is 
critically important and helps us better educate the children 
in my district as well as the children throughout Pennsylvania 
and across our Nation.
    When people think of Bucks County, they often think of 
bucolic pastures and wealthy school districts, but that is not 
the case in the southern part of our county. In my school 
district, 52 percent of our children receive free or reduced 
school lunch. People sometimes believe our Commonwealth's poor 
only live in Philadelphia or Pittsburgh; that simply isn't 
true. There are plenty of children living in poverty across 
Pennsylvania. Some of our children are the epitome of ``at 
risk.'' Our special education enrollment is 20 percent, well 
above the State average.
    The PSSA scores in our primary grades have improved 
significantly in the past few years. I credit this to our full-
day kindergarten program, which began 4 years ago, and our 4-
year-old pre-K program, which began 3 years ago. Nearly 40 
percent of our students in 11th grade scored below proficient 
on their PSSA reading test in 2008 and 2009. I can't help but 
wonder, if these 11th-grade students had had a quality pre-K 
experience, whether the scores on these assessments would have 
been higher.
    Nearly 50 percent of children under 5 in my district live 
in families earning 200 percent or less of the Federal poverty 
level. These families cannot afford quality pre-Kindergarten, 
and many of them do not receive the kind of developmentally 
appropriate learning activities they need to build the 
vocabulary, pre-academic, and social skills they will need in 
kindergarten. When they get to kindergarten they are behind 
their peers, and often stay behind throughout their school 
careers. If we can reach these children early with quality pre-
Kindergarten, they would never get behind.
    Pennsylvania Pre-K Counts provides a quality pre-
Kindergarten experience at no cost to their families. These 
families have the option of half day or full-day pre-
Kindergarten in schools, Head Start, or child care programs, or 
nursery schools. A part of this quality experience includes 
parent involvement so the child's learning can continue at 
home. That is exactly the sort of program our families need.
    Prior to opening our pre-K, my kindergarten teachers told 
me they could identify the children who did not have a 
preschool experience. They also told me that they could 
identify the children who had a quality pre-K experience and 
children who did not attend a quality preschool. I believed 
strongly that children needed a quality preschool program 
because of what our teachers were telling us, but also because 
studies show that at least half of the eventual achievement gap 
already exists in kindergarten. Students who start behind are 
at a higher risk of staying behind, dropping out, and 
eventually getting into trouble with the law.
    When I became superintendent of Morrisville, 6 years ago, 
one of my goals was to improve the quality of the early 
education our students received. All of our Accountability 
Block Grant funds were invested into full-day kindergarten so 
that all of our students would be able to have a full-day 
kindergarten experience. Before ABG, only one of our 
kindergarten classes was full-day. Now, all four offer full-day 
kindergarten. I would have loved to begin a quality pre-
Kindergarten program with our ABG funds, but there was no money 
left.
    Pennsylvania Pre-K Counts is a godsend for districts like 
mine who want to invest in quality pre-Kindergarten but do not 
have the resources. Using these funds for a dedicated funding 
stream for pre-K is more valuable to us than adding it to the 
rest of the Accountability Block Grant because, through 
Pennsylvania Pre-K Counts, these resources go where they're 
really needed rather than swallowed up by other programs or 
operating supports.
    Because Pennsylvania Pre-K Counts is fully funded by the 
State, I don't have to pull from our budget. I can serve 
children who can most benefit from pre-Kindergarten. Now they 
don't have to start behind.
    Four years ago, Morrisville Borough, Bristol Borough, and 
Bristol Township School Districts collaborated to write a Pre-K 
Counts Public-Private Partnership Grant. We used the grant, 
from the public-private partnership, to invest in our pre-
Kindergarten partners through coaching, professional 
development, and parent literacy activities. The public-private 
partnership helped me build relationships with our community-
based programs, such as Head Start, child care, and early 
intervention, that I never had before. Because of these 
relationships, we developed transition activities between our 
elementary schools and community pre-K providers so that, when 
children come to kindergarten, they're comfortable in the 
school environment.
    Three years ago, our school district applied for 
Pennsylvania Pre-K Counts, in partnership with the Morrisville 
YMCA and Head Start, and in cooperation with the Bucks County 
Intermediate Unit. We have served 76 3-year-olds at YMCA and 61 
4-year-olds in our primary elementary school building in the 
past 3 years. Ten percent of these slots are dedicated to 
children with special needs, and priority enrollment has been 
given to children who are on the waiting list for Head Start 
services. I am delighted to think of the great start we have 
given these children because of Pennsylvania Pre-K Counts.
    I asked my kindergarten and first-grade teachers to reflect 
on the progress of their students who attend our pre-K program. 
The following are comments they shared with me.
    A first-grade teacher told me,

          ``The six students I currently have who attended our 
        pre-K are doing very well. Their overall performance is 
        great. They not only pick up material quickly, but I 
        find that I usually need to find more challenging 
        activities for them. They are above level in math and 
        reading. When I think back to the first few weeks of 
        school, these students, for the most part, seemed 
        easily acclimated to the school environment and 
        routine. Three of the students are reading at third-
        grade reading levels, two are reading at second-grade 
        levels, and one is on level.''

    A kindergarten teacher said the following: ``K''--I'm only 
going to use initials.

          ``K is a true leader and an enthusiastic learner who 
        works hard to complete tasks neatly and on time. J is a 
        very mature student who loves learning. He was well 
        prepared for kindergarten compared to his peers. He is 
        the best-behaved and most-focused student in my class. 
        Y enjoys writing stories. He has excellent spelling and 
        Kid Writing skills. They are all above level in 
        reading, writing, and math.''

    Another kindergarten teacher told me that,

          ``It is really wonderful to have students in 
        kindergarten who were part of our pre-K program. They 
        begin the year with excitement and fantastic readiness 
        skills. They understand the general expectations of 
        playing and working together in small groups. They have 
        practice with sitting on the carpet quietly and 
        listening to books read aloud. These skills can be even 
        more important than academic skills, because they set 
        the stage for learning. Providing this experience for 
        children, who would otherwise be unable to participate, 
        is truly a gift in preparing them for a successful 
        school experience.
    Additionally, my students have strong academic skills. They 
are able to make, label, and extend patterns. They can count 
objects and write and order numbers. They can create graphs 
when given data. They identify coins by name, and can count to 
100, and beyond, independently. They can recognize all the 
sight words that have been taught. They use these words 
regularly in their Kid Writing Journals. Some of the children 
can even identify words that have not been introduced, applying 
phonetic skills that have been taught.''

    One of the first-grade teachers told me that one of her 
students who attended our pre-K has already met the end-of-the-
year first-grade goals, last marking period, which was at the 
end of January.
    Seventy-one percent of our students who attended our pre-K 
program are above level in reading; 14 percent are on level; 
and 14 percent are slightly below. These youngsters have been 
receiving additional supports and are making excellent 
progress. The pre-K teacher alerted the kindergarten teachers 
of the needs of these few youngsters, which allowed the teacher 
to begin the process having the children screened, upon 
entering kindergarten, so that they could receive their needed 
services. Students have also worked with our gifted teacher for 
enrichment purposes and are being evaluated for the gifted 
program.
    I received an e-mail, just this morning, to let me know one 
of the teachers--one of the first-grade teachers noted--wanted 
to ask if we had noticed that a very high number of children 
are being tested for our enrichment program. So, I thought that 
that was wonderful--that was a wonderful testament.
    Morrisville School District's pre-K program has proven that 
providing a quality pre-Kindergarten experience for at-risk 
children allows them to begin school on the same level playing 
field as their peers from more privileged backgrounds. I urge 
Congress to support funding early childhood programs as they 
reauthorize the Elementary and Secondary Education Act. Our 
children deserve early childhood programs so that they can 
start school ready to learn and ready to succeed.
    Senator Casey. Thanks very much, Doctor.
    Melissa Bowman.

STATEMENT OF MELISSA BOWMAN, KINDERGARTEN TEACHER, MORRISVILLE 
                SCHOOL DISTRICT, MORRISVILLE, PA

    Ms. Bowman. My name is Melissa Bowman. I have had the 
privilege of teaching in several early childhood classrooms 
over the past 11 years. It is extremely rewarding to work with 
young children. I am always amazed by how much progress a young 
child can make in one short school year.
    My first teaching experience was in a first-grade class in 
a Philadelphia public school. A few children in my class 
attended a Head Start program that was housed in the same 
school. The program definitely made a positive difference for 
the students who were lucky enough to attend. However, most of 
the children in my class did not attend any type of preschool 
program. They had missed that ideal window for learning. Many 
came into my first-grade class without the simple knowledge of 
letters or sounds. Several children showed frustration, and 
behavior problems ensued. Unfortunately the challenge of 
catching up for these children was a near impossible task.
    My next teaching experience was as a kindergarten teacher 
in a wonderful and very high-quality childcare center. The 
children in this school often had several years of preschool 
experience before coming to my kindergarten classroom. The 
children in this program flourished. Parents often came back 
with reports of how their children were showing advanced 
achievement in their elementary schools.
    Three years I ago, I came to Morrisville as the pre-K 
teacher. I was given the wonderful opportunity and resources to 
help build an exceptional high-quality Pre-K Counts program in 
Morrisville. Parents were thrilled to have this program 
available. Several parents expressed that if it had not been 
for this program, their child would not have attended pre-K, 
because of the great cost. For many of the children in my pre-K 
class, this was their first school experience. I set high goals 
for my class, and the students exceeded my expectations. The 
children learned letters, numbers, and sight words, as well as 
how to listen attentively and work cooperatively with others. 
By the end of the year, they had not only made a huge amount of 
progress cognitively, but also socially. They left my class 
ready to be the leaders and role models in their new 
kindergarten classrooms.
    At the end of the school year last year, there was a great 
amount of uncertainty about whether or not the pre-K program 
would have funding to continue in Morrisville. For that reason, 
I requested a change to a kindergarten position. This year in 
my kindergarten class, I am lucky enough to have four students 
who were in my pre-K class last year. All four students are 
reading and performing above the expected level, with two of 
the students reading on a third-grade reading level.
    After talking with the three other kindergarten teachers in 
the district, we all agree that children who attend a quality 
pre-K program are very easy to spot. They come to school with 
the understanding of how a classroom works and with the 
knowledge needed to thrive with our fast-paced kindergarten 
curriculum.
    It is well known that the first 5 years of a child's life 
are critical for learning and brain development. What a child 
learns during these early years will directly impact what he or 
she is capable of learning in the future. The benefit of 
quality pre-K programs has been clearly evident to me 
throughout my teaching. Young children are capable of learning 
an extraordinary amount, if given the opportunity. Pre-K 
programs are essential in assuring school success for all 
children.
    Senator Casey. Melissa, thank you very much.
    Ms. Bowman. Thank you.
    Senator Casey. And next, we have Michele Fina. Did I 
pronounce ``Fina'' correctly?
    Ms. Fina. You did.
    Senator Casey. OK.
    Ms. Fina. Thank you.
    Senator Casey. Twice, or once?
    Ms. Fina. No, you did it twice, both perfectly.
    Senator Casey. Thank you very much.
    [Laughter.]
    Good staff work.

 STATEMENT OF MICHELE FINA, BRANCH DIRECTOR, MORRISVILLE YMCA, 
                        MORRISVILLE, PA

    Ms. Fina. My name is Michele Fina. I'm the branch director 
of the Morrisville YMCA, a childcare center located here in 
Morrisville Borough. I have been with the Morrisville Y since 
1992. I currently serve as board president for the Bucks County 
Quality Child Care Coalition, our local community engagement 
group. I also serve on the Bucks County Pre-K Counts Grantees 
workgroup, and I am a member of the Morrisville Rotary Club. 
The YMCA has been involved with Pre-K Counts since the original 
public-private partnership, and we continue to partner with the 
Morrisville Borough School District in Pre-K Counts.
    Our current center enrollment is 125. Approximately 64 
percent of our children are subsidized by Child Care Works. 
Another 5 to 10 percent receive YMCA scholarships. We have 18 
full-day preschool children funded by the Pennsylvania Pre-K 
Counts program.
    For the past several years, we applied for an expansion 
grant to provide half day services to approximately 10 children 
that were on our waiting list. Unfortunately, there weren't 
resources in Pennsylvania for that grant.
    Many of the children in our community have identified risk 
factors, including poverty, English as a second language, and 
special needs.
    To participate in Pre-K Counts, childcare programs must 
meet the criteria of STAR 3 or 4 in Pennsylvania's voluntary, 
quality improvement and recognition system, known as Keystone 
STARS. I am very proud to say that our center earned a STAR 4 
on March 24.
    [Applause.]
    Reaching this level of quality helps ensure that all of our 
children will have a high quality pre-Kindergarten experience, 
with competent teachers and assistants in an environment that 
includes positive relationships, small class size, and a 
curriculum that aligns with the Pennsylvania early learning 
standards. Centers are required annually to complete self-
assessments using the Environmental Rating Scale, better known 
as ERS, and then independent ERS assessors determine if the 
site has met the 5.5 to 7.0 scores necessary. My staff can tell 
you how absolutely nerve-wracking it is to have a stranger 
enter your room and scrutinize everything, including your space 
and furnishings, your personal care routines, language and 
reasoning, the classroom activities, the staff-and-children and 
staff-and-parent interactions, schedules, and staff 
development. I'm also very proud to say that our Pre-K Counts 
classroom scored 6.07 out of a possible 7 during our December 
2009 independent ERS evaluation.
    Our center has been involved in Keystone STARS since its 
inception, and for most of those years we were a STAR 1 or 2, 
but then we realized that, in order to provide a high quality 
program and continue to participate in the PA Pre-K Counts 
program, we would have to move to STAR 3, which is the most 
involved and hardest step in the Keystone STARS program. Most 
staff needed higher education, and for some, it meant returning 
to school, 20 years after graduating from high school; little 
scary for some people. I decided if teachers needed to be role 
models for the children in their care, then I needed to inspire 
staff to pursue higher education, so I returned to school for 
my Master's Degree in Early Childhood Education.
    The majority of our teachers and assistants have been with 
us for 5 to 23 years, our staff attrition rate is very low. We 
lose and add approximately one or two employees each year. 
Nearly 50 percent of our employees are pursuing certificates 
and degrees, and several others already hold associate or 
bachelor degrees. Four years ago, we didn't have staff as 
competent or educated.
    So, what does this mean for us? It means that the PA Pre-K 
Counts and Keystone STARS improve, and continue to improve, our 
entire program, and everyone has benefited from our 
participation. Both programs provide dedicated resources and a 
support system with technical assistance and funding for 
everything from supplies to professional development. The 
children, their families, my staff, and all of our community 
stakeholders have gained. The bottom line is, the children 
enter school prepared to learn.
    Many of the children who enter our Pre-K Counts program as 
3-year-olds transition to Morrisville School District's pre-K 
program when they're 4. I believe we share a unique and 
supportive relationship with the school district, and we work 
very closely to assure that our programs are aligned.
    Sixteen months ago, when the school district closed one of 
their elementary schools due to a mechanical failure, Dr. 
Yonson called me on a Sunday and asked if the PA Pre-K Counts 
class could move to our building. Of course my answer was yes, 
and their class was housed in our building from December to 
June, with Miss Melissa Bowman as the teacher. That's the kind 
of partnership that we share.
    The strength in the Pre-K Counts program rests in the fact 
that we work together to achieve these goals. We use the same 
standards, staff qualifications, and curriculum as school 
district classrooms, other childcare centers, Head Start 
programs, and private kindergartens. This diverse delivery 
system supports families and communities and gives families 
choices. Ultimately, it is the early learning standards which 
connect to the K through 12th-grade curriculum, providing a 
seamless path from infancy through high school.
    Why is quality early education important? Research 
indicates that 90 percent of the brain is developed by the time 
the child is 5 years old. We know that the early years are 
crucial for development. Quality programs that participate in 
PA Pre-K Counts and Keystone STARS follow stringent standards 
every day.
    And just to give you an example: One evening I was walking 
through my center, checking to make sure that all the lights 
were turned out, and I heard this whispering in one of the 
classrooms and thought, ``Oh my goodness, someone left a child 
in the classroom.'' I walked into the classroom and saw a dad 
sitting on the floor in the reading corner, with his son 
between his legs, reading a book to his child. And as he read 
the book, he was following the words with his fingers. He got 
up quietly after he was done, and he said to me, ``My son just 
wanted me to read his favorite book to him, because he wants me 
to buy it for him for Christmas.'' If we could get through to 
that parent and that child, not a parent that you would ever 
expect to be doing this, then we've gotten through to many, 
many more families.
    What we need, though, is more funding. Childcare centers 
need Keystone STARS. And families need programs like PA Pre-K 
Counts. Strong State and Federal funding partnerships are 
needed to provide programs that help children to be ready to 
learn and succeed in school.
    Thank you.
    [The prepared statement of Ms. Fina follows:]
                   Prepared Statement of Michele Fina
    Welcome Senator Casey. My name is Michele Fina and I am the branch 
director of the Morrisville YMCA, a child care center located in 
Morrisville Borough. I have been with the Morrisville Y since 1992. I 
currently serve as board president of the Bucks County Quality Child 
Care Coalition, our local community engagement group. I serve on the 
Bucks County Pre-K Grantees Work Group. In addition, I am a member of 
the Morrisville Rotary Club. The Morrisville YMCA has been involved 
with Pre-K Counts since the original Public Private Partnership and we 
continue to partner with the Morrisville Borough School District in PA 
Pre-K Counts.
    Our current enrollment is 125. Approximately 64 percent of our 
children are subsidized by Child Care Works. Another 5-10 percent 
receives YMCA scholarships. We have 18 full-day preschool children 
funded through Pennsylvania Pre-K Counts. For the past several years we 
have applied for an expansion grant to provide half day services to 
approximately 10 children on our waiting list. Unfortunately, there 
weren't enough resources in Pennsylvania for that grant. Many of the 
children in our community have identified risk factors including 
poverty, English as a second language, and special needs.
    To participate in PA Pre-K Counts, child care programs must meet 
the criteria of STAR 3 or 4 in Pennsylvania's voluntary, quality 
improvement and recognition system Keystone STARS. I am proud to say 
that our center earned a STAR 4 on March 24.
    Reaching this level of quality helps insure that all of our 
children will have a high quality pre-kindergarten experience with 
competent teachers and assistants in an environment that includes 
positive relationships, small class size, and a curriculum that aligns 
with the Pennsylvania Early Learning Standards. Centers are required 
annually to complete self-assessments using the Environmental Rating 
Scale (ERS) and then independent ERS assessors determine if the site 
has met the 5.5 to 7 point scores necessary. My staff can tell you how 
nerve wracking it is to have a stranger enter your room and scrutinize 
space and furnishings, personal care routines, language and reasoning, 
classroom activities, staff and children and staff and parent 
interactions, schedules, and staff development. I am proud to say that 
our Pre-K Counts classroom scored 6.07 out of a possible 7.0 during our 
December 2009 independent ERS evaluations.
    Our center has been involved in Keystone STARS for at least 10 
years. For many of the first 6 years, we were a STAR 2, but we realized 
that in order to insure that we were providing high quality programming 
and to continue to participate in PA Pre-K Counts program we would need 
to move to STAR 3, which is the most involved and hardest step in the 
Keystone STARS program.
    More staff needed higher education and for some, it meant returning 
to school more than 20 years after graduating from high school. I 
decided if teachers need to be role models for the children in their 
care, then I needed to inspire staff to pursue higher education. So I 
returned to school for my Master's Degree in Early Childhood Education.
    The majority of our teachers and assistants have been with us for 
5-23 years. Our staff attrition rate is low and we lose and add 
approximately one or two employees each year. Nearly 50 percent of our 
employees are pursuing certificates and degrees and several others 
already hold associate or bachelor degrees. Four years ago, we did not 
have staff as competent or educated.
    What does this mean for us? PA Pre-K Counts and Keystone STARS 
improve and continue to improve our entire program and everyone has 
benefited from our participation. Both programs provide dedicated 
resources and a support system with technical assistance and funding 
for everything from supplies to professional development. The children 
and their families, my staff, and all our community stakeholders have 
gained. Children enter school prepared to learn.
    Many of the children who enter our PA Pre-K Counts program as 3-
year-olds, transition to Morrisville School District's pre-kindergarten 
PA Pre-K Counts program. I believe we share a unique and supportive 
relationship with the school district and we work very closely to 
assure that our programs are aligned. Sixteen months ago, when the 
school district closed one of the elementary schools due to a 
mechanical failure, Dr. Yonson called me on a Sunday and asked if the 
PA Pre-K Counts class could move to our building. Of course, my answer 
was yes and their class was housed in our building from December to 
June. That is the kind of partnership we share.
    The strength in the PA Pre-K Counts Program rests in the fact that 
we work together to achieve the same goals. We use the same standards, 
staff qualifications, and curriculum as school district classroom, 
other child care centers, Head Start programs and private 
kindergartens. This diverse delivery system supports families and 
communities and gives families choices. Ultimately, it is the early 
learning standards which connect to the K-12th grade curriculum 
providing a seamless path from infancy through high school.
    Why is quality early education important? Research indicates that 
90 percent of the brain is developed by the time a child is 5 years 
old. We know the early years are crucial for development. Quality 
programs that participate in PA Pre-K Counts and Keystone STARS, 
especially those at STAR 3 and 4 levels, follow stringent standards 
every day. Programs strive to provide developmentally appropriate 
activities to help children learn. ERS assessments provide valuable 
information for child care sites on professional development or 
programmatic changes that need to be made. And in turn we use child 
assessments like Work Sampling to determine if a child needs support in 
a particular area, if a child is making progress, and what we may need 
to work on next.
    We work hard to create a family atmosphere within our center. Our 
goal is to help families feel comfortable entrusting their children to 
our care. Families are encouraged to participate in our events, to 
belong to our Family Group, and to become involved in their child's 
education.
    I was walking through our center early one evening, checking to 
make sure that lights were turned off and I heard whispers coming from 
one of the empty rooms. Immediately, I thought, someone left a child 
alone in the room. I walked into the room and saw one of our fathers 
sitting in front of a child-sized sofa in the library/reading corner 
with his son in front of him. It was obvious the dad couldn't fit on 
the furniture. Dad read the book to him, using his finger to follow the 
print on the page while his son listened to every word. I wouldn't have 
expected this dad to be taking the time to sit on the floor and read. 
When dad was finished, he quietly stood up and said, ``My son wanted me 
to read his favorite book to him because he wants me to buy it for him 
for Christmas.'' This is only one story, but if we reached this child 
and father, I know we reached many, many more. We read with our 
children many times each day and hope that they will grow to love the 
words and stories and develop the skills that are necessary for 
literacy.
    We need both State and Federal support to continue providing 
quality early care and education for our youngest and most vulnerable 
citizens. Child care centers need Keystone STARS. Families need 
programs like PA Pre-K Counts. Without these programs, children may not 
reach their potential. The opportunity to participate in high quality, 
community-based early care and education programs and strong 
partnerships between programs and schools helps smooth transitions to 
kindergarten. Child care centers work hard to uphold and maintain 
quality through Keystone STARS 3 or 4 designations or accreditation 
through the National Association for the Education of the Young 
Children (NAEYC). Strong State and Federal funding partnerships are 
needed to provide programs that help children to be ready to learn and 
succeed in school.
    Thank you.

    Senator Casey. Thanks so much. And I want to thank Michele 
for adjusting to the time.
    I want her to know, and I want all the witnesses to know, 
something I should have said at the beginning, is that your 
full testimony will be in the record. So, if for some reason 
you don't cover a section, it'll still be in the record.
    Thank you very much.
    Ms. Ackerman.

    STATEMENT OF DEBRA J. ACKERMAN, ASSOCIATE DIRECTOR FOR 
  RESEARCH, NATIONAL INSTITUTE FOR EARLY EDUCATION RESEARCH, 
 RUTGERS, THE STATE UNIVERSITY OF NEW JERSEY, NEW BRUNSWICK, NJ

    Ms. Ackerman. Before I start, I apologize to all of you in 
the audience. I have a PowerPoint presentation to talk about 
the research I'm going to be sharing, but it is, unfortunately, 
behind all of you. So, if you want to turn around, and for the 
students, in particular, I don't know how many of you are going 
to be able to see it, but even if you want to come forward this 
way, that would be just fine.
    Good afternoon. My name is Debra Ackerman, and I am the 
associate director for research at the National Institute for 
Early Education Research, at Rutgers University, which is in 
New Jersey. Thank you for inviting me to testify today.
    What I would like to share with you today is a brief 
overview of the compelling research based on the benefits of 
high-quality pre-K programs, particularly for disadvantaged 
children. I will do this by highlighting the significant 
outcomes from research on four pre-K programs. In addition, to 
help inform future Federal efforts in expanding access to pre-K 
to additional low-income children, I'll focus on the critical 
program elements that contributed to the quality of these 
programs.
    The evidence we have on the short- and long-term outcomes 
of high-quality pre-K come from a variety of rigorous research 
studies. However, the three most famous studies are those of 
the Abecedarian, Chicago Child-Parent Center, and High/Scope 
Perry Preschool programs.
    Each of these programs served children who were considered 
to be at risk for school failure. As you can see from the 
slide, the Abecedarian and Perry Programs were very small in 
comparison to the Child-Parent Center Program, which was 
offered by the Chicago Public Schools. The programs also 
differed in terms of the ages served and whether they had a 
half- or a full-day program.
    However, all three programs were similar, in that they used 
highly qualified teachers. In addition, because classrooms were 
staffed by a teacher and assistant, their staff-child ratios 
were 1 to 8.5, or better. Despite the differences in schedule, 
each program has demonstrated remarkable academic benefits for 
enrollees in comparison to the outcomes for children who did 
not participate in the program.
    We're going to begin with the small Abecedarian program. As 
you can see from the slide, if you look at the top, just one-
third of enrollees were subsequently placed in special 
education, versus about half of the no-program group. In terms 
of grade repetition, which means you're left back and you need 
to repeat a grade, again, about one-third of enrollees repeated 
a grade, in comparison to 65 percent of those who did not 
participate in the program. Next we look at high school 
graduation rates. The difference in those rates were 67 percent 
versus 51 percent. Finally, while a full third of participants 
went on to a 4-year college, only 13 percent of the no-program 
group had a similar outcome.
    We see similar results when comparing academic outcomes for 
those enrolled in the Chicago Child-Parent Center program. Half 
of the program enrollees graduated from high school, versus 
only 39 percent of the no-program group. Special education 
placement and the rate of in-grade repetition also were lower 
for those who participated. Enrollment in the CPC program has 
also had an effect on non-academic social outcomes. For 
example, we see that just 17 percent of enrollees experienced a 
juvenile arrest, versus one-quarter of the no-program group.
    For the Perry Preschool Project, we see rates of special 
education placement that are half as high for the program 
group, in comparison to the no-program group. In addition, 
close to half of the Perry enrollees had standardized test 
achievement levels that were at the 10th percentile or higher, 
versus only 15 percent of the non-enrollees. And finally, a 
larger percentage of the program group graduated from high 
school on time, as well.
    The slides you just viewed are brief examples of the 
individual school-age outcomes one might expect from access to 
a high-quality pre-K program. However, it's also important to 
talk about the outcomes children experience as adults. For the 
student that are in the back, what happens after you finish 
high school. When we examine economic variables for 27-year-
olds who had previously participated in the Perry Preschool 
program, we see that their rates of earning at least $2,000 a 
month, owning their own home, or never having been on welfare 
as an adult are significantly better, in comparison to the no-
program group. By age 40, we still see differences in terms of 
income, employment rates, and such characteristics as having a 
savings account.
    When we talk about the potential outcomes from enrollment 
in pre-K programs, we tend to focus solely on, ``OK, are 
children ready for kindergarten?'' or how much better do they 
do when they hit a kindergarten classroom, in terms of knowing 
their letters and that kind of thing. But, it also is important 
to understand the economic returns to the larger community when 
schools have lower rates of special education placement and 
grade repetition, as well as higher high school graduation 
rates. And of course post-secondary employment and income rates 
also contribute to the larger community.
    Each of these programs had different per-child costs. And 
the programs were admittedly----
    Oh. I'm sorry. I'm missing the rest of my slide. There we 
go.
    These programs were not cheap at all, as you can see, if 
you look at the per-child cost. But, perhaps the most 
compelling evidence for why high-quality pre-K is a wise 
investment is the benefit/cost ratio for each program. So, we 
see that, the Abecedarian program, realized a 2.5 to 1 rate of 
return. That means for every dollar that was spent initially, 
2\1/2\ dollars came back to the community. The rate of return 
for the Chicago Child-Parent Center and High/Scope Perry 
programs were even higher. For every dollar invested in these 
programs, there was a $10 and $16 rate of return, respectively. 
I would like to ask all of you, Who has stuck a dollar in their 
bank recently and can earn a 16-percent rate of return?
    I'm now wanting to share with you recent research on the 
effects of New Jersey's Abbott Pre-K program for children 
living in its most disadvantaged urban districts. In comparison 
to children who did not attend, second graders experienced 
higher language, literacy, and math gains. But, if you look at 
this slide, this is just the retention in grade 2. And you'll 
see that, again, if children attended at age 3 and 4, versus 
none at all, their grade retention was cut in half.
    So, one thing that I would really like to emphasize to you 
is that, within all four of these programs, while they were all 
different, they all had an emphasis on quality, in that they 
had teachers who were credentialed, they had a 4-year bachelor 
degree, as a minimum, teacher certification, small class sizes, 
lots of support for teachers, in terms of ongoing professional 
development and supervision. In that, for me, the takeaway 
message from this research, it is not so much that we want to 
expand access to pre-K to children for the sake of expanding 
access; we, at the same time, want to ensure that the programs 
young children have access to are of the highest quality, so 
that you will realize the returns that were demonstrated in 
these other research studies.
    And I would conclude by saying that I realize that this 
type of program is not inexpensive, but that, to me, the cost 
of not providing a high-quality program is even more expensive 
than that.
    Thank you very much.
    [The prepared statement of Ms. Ackerman follows:]
                  Prepared Statement of Debra Ackerman
    Good afternoon. My name is Debra Ackerman and I am the associate 
director for research at the National Institute for Early Education 
Research, which is part of Rutgers University. Thank you for inviting 
me to testify today.
    What I would like to share with you today is a brief overview of 
the compelling research base on the benefits of high-quality early 
learning programs. I will do this by highlighting the significant 
outcomes from research on four model early childhood education 
programs. In addition, outcomes are defined here as the effects on 
children and the economic returns to the larger communities they live 
in.
    The evidence we have on the short- and long-term outcomes of high 
quality early childhood education come from a variety of rigorous 
research studies. However, the three most famous studies are those of 
the Abecedarian, Chicago Child-Parent Center, and High/Scope Perry 
Preschool programs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Each of these programs served children who were considered to be 
at-risk for school failure. The Abecedarian and Perry Programs were 
very small in comparison to the Child-Parent Center Program, which was 
offered by the Chicago Public School. The programs also differed in 
terms of the ages served and whether they had a half- or full-day 
program. However, all three programs used highly qualified teachers. In 
addition, because classrooms were staffed by a teacher and assistant, 
their staff-child ratios were 1 to 8.5 or better.
    Despite the differences in schedule, each program has demonstrated 
remarkable academic benefits for enrollees in comparison to the 
outcomes for children who did not participate in the program. We begin 
with the small Abecedarian program. As can be seen from the slide, just 
one-third of enrollees were subsequently placed in a special education 
classroom, versus about half of the no-program group. In terms of grade 
repetition, again, about one third of enrollees repeated a grade in 
comparison to 65 percent of those who did not participate in the 
program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The difference in high school graduation rates was 67 versus 51 
percent. Finally, while a full third of participants went on to a 4-
year college, only 13 percent of the no-program group had a similar 
outcome.
    We see similar results when comparing academic outcomes for those 
enrolled in the large-scale Chicago Child-Parent Center program. Half 
of the program enrollees graduated from high school, versus 39 percent 
of the no-program group.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Special education placement and the rate of in-grade repetition 
also were lower for those who participated in the program. 
Participation in the CPC program also had an effect on non-academic 
social outcomes. For example, we see that just 17 percent of enrollees 
experienced a juvenile arrest, versus one-quarter of the no-
program group.
    For the Perry Preschool Project, when looking at outcomes at age 
19, we see rates of special education placement that are half as high 
for the program group in comparison to the no-program group.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In addition, close to half of Perry enrollees had standardized test 
achievement levels that were at the 10th percentile or higher, versus 
only 15 percent of the non-enrollees. Finally, a larger percentage of 
the program group graduated from high school on time, as well.
    The three slides I just showed are just brief examples of the 
individual school-age outcomes education stakeholders might expect for 
from access to high quality early childhood education programs. 
However, it's also important to talk about outcomes once children 
become adults.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    For example, when examining several economic variables for 27-year 
olds who had previously participated in the Perry Pre-school program, 
we see that their rates of earning at least $2,000 per month, owning 
their own home, or never having been on welfare as an adult are 
significantly higher in comparison to the no-program group.
    By age 40, we still see differences in terms of income, employment 
rates, and such characteristics as having a savings account.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    When talking about the potential outcomes from enrollment in early 
childhood education programs, it also is important to understand the 
economic returns of the larger community when schools have lower rates 
of special education placement and grade repetition, as well as higher 
high school graduation rates. Higher post-secondary employment and 
income rates also contribute to the larger community.
    Each of these three programs had different per-child costs and 
benefits. But, perhaps the most compelling evidence for why high 
quality early childhood programs are a wise investment is the benefit/
cost ratio from these programs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Abecedarian Program realized a 2.5 to 1 rate of return. The 
rate of return for the Chicago Child-Parent Center and High/Scope Perry 
programs are even higher. For every dollar invested in these programs, 
there was a $10 and $16 dollar return, respectively.
    To share with you a more recent example, research on the effects of 
New Jersey's Abbott Pre-K Program through Grade 2 is showing similar 
promise for these types of academic outcomes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In comparison to children who did not attend, we have found that 
enrollees experienced higher language, literacy, and math gains. By 
Grade 2, grade repetition is cut in half for children who attended at 
age 3 and 4 versus no enrollment at all.
    We do not yet have the same type of longitudinal data for NJ's 
program to demonstrate the type of returns on the state's investment. 
However, what is important to note is that NJ's Abbott Pre-K shares 
many of the same high-quality program elements found in the 
Abecedarian, Chicago Child-Parent Center, and High/Scope Perry 
programs.
                        Program Quality Matters
    <bullet> Well-designed;
    <bullet> Balanced practices & curriculum;
    <bullet> Implemented as designed;
    <bullet> Strong staff;
    <bullet> Strong supervision and monitoring; and
    <bullet> Use data to inform policy & practice.

    More specifically, the teachers in the program all have a minimum 
of a BA and a specialized early child education certification. The 
program uses a full-day schedule and also provides before- and after-
school care, which results in higher participation rates. Class size is 
capped at 15 students. Teachers need to use a research-based, 
intentional curriculum, and their practice is guided by State program 
standards and expectations for what children should learn. In addition, 
both children and teachers have access to a variety of key supports. 
Teachers, in particular, have access to ongoing training and 
supervision, as well.
    In summary, rigorous research demonstrates the potential outcomes 
of access to high-quality early childhood education programs. These 
outcomes include higher learning gains for children and lower rates of 
grade repetition and special education placement. Children have a 
better shot at graduating from high school and going on to become 
productive members of society, as well.
    All of these outcomes benefit the larger community and present the 
potential to realize an economic return that beats what I'm currently 
getting at my local bank. However, we must also keep in mind the 
importance of program quality. It is not enough to merely identify 
classroom space and staff and begin to offer a program that serves 
young children. Instead, early education stakeholders must ensure that 
programs offer children the experiences and support they need to 
realize the short- and long-term outcomes highlighted today.
    Thank you and I would be happy to answer any questions.

    Senator Casey. Thanks, Dr. Ackerman.
    Joan Benso is next.

  STATEMENT OF JOAN L. BENSO, PRESIDENT AND CEO, PENNSYLVANIA 
           PARTNERSHIPS FOR CHILDREN, HARRISBURG, PA

    Ms. Benso. Thank you, Senator.
    It's a pleasure to have the opportunity today to testify 
before this field hearing of the Senate Health, Education, 
Labor, and Pensions Committee.
    I'm Joan Benso. I'm the president of Pennsylvania 
Partnerships for Children. We're a statewide, independent, 
data-driven child advocacy organization, whose vision is to 
advance Pennsylvania's position as being one of the top 10 
States in the Nation to be a child and to raise a child.
    We, fundamentally, believe that what happens in early 
childhood, and the opportunities children have for enrichment 
and education in those years, will help us get there.
    Candidly, I can't say any of it close to as well as Dr. 
Ackerman did. Her research findings, and her articulation of 
the importance of high-quality program characteristics to yield 
an astonishingly high return on the public's investment in pre-
K, are simply the driving messages behind this.
    But, let me share with you a little bit of Pennsylvania 
homegrown research on our own Pre-K Counts program or on our 
own investments in pre-K. A recent Pennsylvania study showed 
that school districts would recoup as much as 78 percent of 
their spending on pre-K--on reduced costs in special education 
in the immediate years to follow. You heard Dr. Yonson speak of 
the changes in the characteristics of her early elementary 
population. We can see a reduction in special education savings 
of at least 8 percent annually, in Pennsylvania, with a 
correlated investment in pre-K.
    The study of our own Pennsylvania Pre-K Counts program 
shows that 75 percent of the children--these are individual 
child assessments that have demonstrated this--end a year in 
Pre-K Counts fully ready for the rigors of kindergarten--75 
percent of them. We've seen other data in Pennsylvania that 
shows very marked reduced placement in special education 
classes.
    We know that pre-K programs, though, don't all produce the 
same outcomes. And Dr. Ackerman spoke, particularly at the end, 
about the core components of pre-K programs that will reduce 
the high quality of return on investment. There are programs 
that are driven by early learning standards that are connected 
to State's K to 12 academic standards.
    So, as the committee is considering, in the reauthorization 
of the Elementary and Secondary Education Act, really thinking 
about systems of learning from pre-K through post-secondary 
completion, that's the model. But, these programs that work, 
that return that $16, are indeed programs that comply with what 
the research tells us it works. It's not ``pre-K light,'' it's 
not some watered-down program, it's not someone else's rules. 
And I will tell you, much of that gets discussed, both in 
Washington and in Harrisburg.
    They are programs that use a research-based curriculum 
that's aligned with the early learning standards. They are 
programs that used degreed and credentialed teachers, that have 
an opportunity for ongoing professional development, and that 
specialize in early childhood education. They are programs that 
assure that group sizes and adult/child ratios are small. They 
are programs that insist upon a developmental approach to 
meeting the needs of children, and assuring that their physical 
health, hearing, vision is all well cared for and in place, and 
that engaged parents, and, as Senator Casey said in the 
beginning, and that proper nutrition is available for children. 
Those are the pre-K programs that are driven by our Pre-K 
Counts rules in Pennsylvania. Those are the programs that yield 
this rich return on investment. And those are the programs 
that, in the long run, save us, as taxpayers, money.
    Now, as a taxpayer of the Commonwealth of Pennsylvania and 
of this country, I will tell you that all of us need to be more 
cognizant about investments of public dollars that yield these 
results.
    Pennsylvania children enjoy the benefits of publicly funded 
pre-K, but the numbers of them that do are woefully small. We 
provide pre-K to children through Federal funding steams; Head 
Start, about 27,000 kids. Some children in Pennsylvania--
indeed, under ESEA--districts use title I funding to provide 
pre-K to some small group of children. Our Pre-K Counts program 
serves about 12,000 kids. We have a State funding stream for 
Head Start that serves about another 4,500. Our Education 
Accountability Block Grant serves another 3,000. And it's true 
that the school district we're sitting in could use its basic 
education funding to provide pre-K, if it chose to. But, no one 
would give them any more for 7th-graders if they did, so let's 
not fool ourselves on that notion.
    It's a lot of different pots, and it's a lot of different 
opportunity, but when you add it all up and you look at the 3- 
and 4-year-olds in Pennsylvania, of which there are about 
300,000, less than 18 percent of our 3- and 4-year-olds--less 
than one in five--benefit from the value of a high-quality 
publicly funded pre-K education that indeed readies them for 
school. And if you drive deeper into that data and look at the 
children who are most vulnerable, particularly due to poverty, 
if you look at the income guidelines for our Pre-K Counts 
program, which is families living under 300 percent of poverty, 
only 30 percent--less than one in three of them--have this 
opportunity.
    We built a world-class early learning system in 
Pennsylvania over the last 7 years. And much of what we need 
now is a Federal/State partnership to expand its reach.
    Senator Casey has been an enormous leader for children and 
healthcare in Washington, and we, at Pennsylvania Partnerships, 
have really valued our partnership with him on that.
    But, we sit at a moment that is almost identical to where 
we stood in CHIP in 1997. Pennsylvania had its State law; we 
had 45,000 kids in service, in healthcare. There was no Federal 
support for health insurance for other than the poorest of poor 
families, and indeed the Federal Government took a step to pass 
the State Children's Health Insurance Program, and we got to 
clear our waiting list. Today we serve well over 200,000 
children in that program. We have a universal health insurance 
program in Pennsylvania, but only because of that State/Federal 
partnership.
    We would urge the committee to consider the model that was 
in play in SCHIP, which is very much like the parameters that 
were in the Early Learning Challenge Fund, and very much like 
the parameters that are in Senator Casey's ``Prepare All Kids'' 
bill.
    So, with a few more specifics, in wrapping up, we would 
urge the committee to create a dedicated pool of resources in 
ESEA reauthorization for pre-K, but only--and I underscore 
this--only if the base of financial support for ESEA is going 
to grow; otherwise, we're an organization that works on birth-
to-adulthood issues and the whole education continuum. If we 
only say we're going to spend the same amount of money, but now 
we're going to take this pot over here for pre-K, we're going 
to take resources away from school districts and communities to 
use for disadvantaged 5th graders, and 7th graders, and 11th 
graders, and that simply doesn't make sense.
    We would urge Congress to create a new and increased pot of 
money for early learning, and, if not, to at least create 
incentives in ESEA to spur States and LEA's investments in pre-
Kindergarten; designate pre-Kindergarten as an option for 
turning around low-performing schools; go further than, 
potentially, the Administration's Blueprint for Reform has 
suggested; include 3- and 4-year-olds in the funding formulas 
to States for grants authorized on title I and title V; 
absolutely include the students in States' pre-K programs in 
their State's longitudinal data systems that are required; 
include pre-K as part of all early literacy initiatives; and 
give pre-K teachers the opportunity to participate in 
professional development opportunities that are offered for 
other early childhood education teachers, particularly in K-
through-3.
    There's a big way to go about this, and more modest way to 
go about it. We urge Congress to just go about it.
    Thank you, Senator.
    [The prepared statement of Ms. Benso follows:]
                    Prepared Statement of Joan Benso
    Good afternoon Senator Casey. Thank you for the opportunity to 
appear today before this field hearing of the Senate Health, Education, 
Labor, and Pensions Committee: Partnering to Prepare-Expanding Access 
to High Quality Early Childhood Education.
    I am Joan Benso, President & CEO of Pennsylvania Partnerships for 
Children (PPC). PPC is a statewide, independent, non-partisan, data-
driven child advocacy organization. We seek to improve the health, 
education and well-being of the Commonwealth's children. Our vision is 
that by 2014, PPC will have helped Pennsylvania move into position as 
one of the top 10 States in the Nation to be a child and to raise a 
child. Providing children access to high-quality pre-K and assuring 
that every Pennsylvania child benefits from a K-12 education that 
prepares them for college and careers are core strategies as we strive 
to achieve our vision for the Commonwealth.
    What happens in early childhood can influence a lifetime of 
learning and earnings for every child. Research supports high-quality 
pre-K as an effective strategy to improve education achievement. 
Studies show that children who attend high-quality pre-K programs enter 
kindergarten with better language, reading, math and social skills.\1\ 
They have fewer grade retentions, less remediation, higher standardized 
test scores, and higher graduation rates.\2\
---------------------------------------------------------------------------
    \1\ Peisner-Feinberg, E.S., Burchinal, M.R. Clifford, R.M., Culkin, 
M.L., Howes, C., Kagan, S.L., Yazejian, N., Byler, P., Rustici, J., & 
Zelazo, J (2000). The children of the cost, quality and outcomes study 
go to school: Technical report. Chapel Hill; University of North 
Carolina at Chapel Hill, Frank Porter Graham Child Development Center.
    \2\ National Research Council and Institute of Medicine (2000) From 
neurons to neighborhoods: The science of early childhood development. 
Committee on Integrating the Science of Early Childhood Development. 
Jack P. Shonkoff and Deborah A. Phillips, eds. Board on Children, 
Youth, and Families, Commission on Behavioral and Social Sciences and 
Education. Washington, DC: National Academy Press.
---------------------------------------------------------------------------
    Many studies show a positive return for children, schools and 
communities by investing in high quality pre-K. Today you will hear 
from a researcher from the National Institute on Early Education 
Research who will provide you with much great insight into the 
literature than I can. But, let me share a little bit of home-grown 
Pennsylvania evidence that supports investments in high quality pre-K. 
A recent study in Pennsylvania showed school districts could recoup as 
much as 78 percent of pre-K spending in education savings and special 
education costs could be reduced statewide by at least 8 percent 
annually.\3\ A review of the PA Pre-K Counts program shows it is 
achieving great results; 75 percent of the children who entered at risk 
of education failure completed the most recent school year with age-
appropriate proficiency in literacy, numeracy and social skills and 
headed off to kindergarten ready to learn.\4\
---------------------------------------------------------------------------
    \3\ Pennsylvania Build Initiative. (2006). Invest now or pay more 
later: Early childhood education promises savings to Pennsylvania 
school districts.
    \4\ Office of Child Development and Early Learning. (2009). 
Pennsylvania Pre-K Counts: End of year report 2008-9. Harrisburg, PA: 
Pennsylvania Departments of Education and Public Welfare.
---------------------------------------------------------------------------
    But we know that all pre-K programs don't produce the same 
outcomes. Quality matters. It is high-quality that produces the 
positive academic results for children and the tremendous return on 
investments. High-quality in pre-K programs are driven by early 
learning standards that are part of a p-16 academic standards 
continuum. They are programs that use a research-based curriculum, 
employee degreed teachers who engage in continued professional 
development and specialize in early learning, assure that group size 
and adult-child ratios remain low, provide for health, vision and 
hearing screenings as well as family support services to name a few. 
Pre-K programs that don't conform to the research based program 
parameters are a poor use of the taxpayers' money.
    Pennsylvania children enjoy the benefits of publicly funded pre-K 
through a number of programs and funding streams. They have access to 
pre-K through Federal programs including Head Start, which provides 
pre-K to more than 27,000 low-
income children \5\ and title I. Until a few short years ago, 
Pennsylvania held the distinction of being one of a handful of States 
that did not support high-quality pre-K with State funds. In recent 
years, the Commonwealth has established several funding streams for 
pre-K including:
---------------------------------------------------------------------------
    \5\ Administration for Children and Families, U.S. Department of 
Health and Human Services, 2009-10 enrollment.

    <bullet> Pennsylvania Pre-K Counts--delivers high-quality pre-K to 
children at risk of education failure through a mixed delivery system 
of school districts, Head Start providers, certain licensed child care 
providers, and private academic nursery schools. Under the program, 115 
grantees served 11,841 children in fiscal year 2008-9.\6\
---------------------------------------------------------------------------
    \6\ Office of Child Development and Early Learning. (2009). Program 
Reach and Risk Assessment. Harrisburg, PA: Pennsylvania Departments of 
Education and Public Welfare.
---------------------------------------------------------------------------
    <bullet> Head Start Supplemental Assistance Program--expands Head 
Start services to more children in the Commonwealth. The State funds 
are being used to provide Head Start services to nearly 4,500 children 
(in addition to the 27,000 that are supported only by Federal 
funds).\7\
---------------------------------------------------------------------------
    \7\ Administration for Children and Families, U.S. Department of 
Health and Human Services, 2009-10 enrollment.
---------------------------------------------------------------------------
    <bullet> Education Accountability Block Grant--enables school 
districts to invest in education programs that are proven to help 
children's academic achievement. Establishing, maintaining or expanding 
a quality pre-Kindergarten program aligned with the State's current 
academic standards is an allowable use of grant funds. Districts are 
using a portion of the block grant to provide pre-K to 3,100 
children.\8\
---------------------------------------------------------------------------
    \8\ Office of Child Development and Early Learning. (2009). Program 
Reach and Risk Assessment. Harrisburg, PA: Pennsylvania Departments of 
Education and Public Welfare.
---------------------------------------------------------------------------
    <bullet> Basic Education Funding Formula--while very few did, 
school districts have been allowed to use basic education funding for 
pre-K. Our new school funding formula requires school districts that 
receive increases greater than an inflation index to invest the funds 
greater than the index in student achievement strategies. Pre-K is one 
of the allowable student achievement strategies.

    I am proud to have supported the creation of these Pennsylvania 
programs. Unfortunately, not all children who could benefit from these 
programs have access to them. There are about 295,000 3- and 4-year-
olds in Pennsylvania. Less than 18 percent of these children have 
access to high-quality public funded pre-K.\9\ If we dig a little 
deeper into the data, we see that more than 57 percent of all 3- and 4-
year-olds live in families with incomes below 300 percent of the 
Federal poverty level. But only 30 percent of children from these 
families have access to high-quality public funded pre-K.\10\
---------------------------------------------------------------------------
    \9\ (2009). School readiness in Pennsylvania. Harrisburg, PA: 
Pennsylvania Partnerships for Children.
    \10\ Ibid.
---------------------------------------------------------------------------
    We have a good system here in Pennsylvania that only reaches some 
of our children who are at risk of education failure with high-quality 
public funded pre-K. More can and must be done to reach more of our 
youngest learners in order to improve young learners' school readiness 
and long-term academic and life outcomes.
    The status of publicly funded high-quality pre-K in Pennsylvania 
bears a striking resemblance to where we stood with CHIP (Children's 
Health Insurance Program) in 1997. Then, we had a strong program that 
provided access to health insurance to a small percentage of 
Pennsylvania's uninsured children. As you well know, Senator Casey, it 
was one of a few State programs in existence at that time. State 
resources only took the program so far; enrollment was a little more 
than 45,000 and there was a very long waiting list.
    The Federal Government took a bold step to help children's access 
to health care in 1997 and enacted a Federal counterpart to 
Pennsylvania's CHIP that was based on our successful, but limited 
program. The State-Federal partnership provided much-needed financing 
in Federal matching funds as well as rigorous program requirements. 
Pennsylvania was immediately able to clear our CHIP waiting list and 
continue to serve every eligible child applying for coverage. The 
elimination of a waiting list and the comfort that low-income families 
enjoyed--knowing they could turn to CHIP to assure their children would 
have insurance coverage--gave hundreds of thousands of Pennsylvania 
parents' peace of mind. In 2006, Pennsylvania took the monumental step 
to make insurance coverage available to all children in the 
Commonwealth whose families do not have access to or cannot afford 
health insurance. This could have never happened without a strong 
State-Federal financing partnership.
    Pennsylvania needs a strong partnership with the Federal Government 
to expand access to high-quality pre-K to more children, and eventually 
to reach all children. Senator Casey, your Prepare All Kids legislation 
(S. 839) provides a solid foundation for such a partnership. The 
legislation provides matching Federal resources for State pre-K 
programs. It ensures that the public funded pre-K programs would be of 
high quality and utilize a research-based curriculum that supports 
children's cognitive, social, emotional and physical development. 
Prepare All Kids would also establish strong teacher credential 
requirements as well as provide for accountability for State programs. 
Importantly, the program does not seek to divert funds from other 
education programs.
    The Federal Early Learning Challenge Fund proposal could also help 
improve access to high-quality pre-K. The proposal would create a 
framework for States to guide them in establishing and growing a 
comprehensive system of high-quality early learning environments. It 
would set a clear and important goal of increasing the number of 
disadvantaged children in high quality programs. We were disappointed 
that the Fund provisions were not included in the final version of the 
reconciliation bill that accompanied health care reform, but we were 
greatly encouraged by your support for it.
    The reauthorization of the Elementary and Secondary Education Act 
(ESEA) presents a unique and timely opportunity to establish a strong 
State-Federal partnership to expand access to high-quality pre-K in 
Pennsylvania and in States nationwide. Pennsylvania Partnerships for 
Children believes that government has a responsibility for educational 
opportunities for children and young adults from birth to age 25 or 
through completion of a post-secondary education program that prepares 
a young adult for an individual and family sustaining wage job.
    I respectfully urge this committee to make pre-K a part of the 
education continuum in ESEA and include provisions in ESEA to ensure 
that public-funded pre-K is of high quality. But, let me offer a 
serious caution. While inclusion of pre-K is a laudable goal, it cannot 
happen without significantly expanding Federal financial support for 
the base of ESEA first, and then augmenting that enhanced based with 
additional resources to fund pre-K. The goal of ESEA in the past--to 
assure that every American child achieves to world class academic 
standards--has been on target. But the problem has been that it has 
been a hollow promise--a mandate without the resources to implement our 
common vision that every child can and should achieve. Pennsylvania 
Partnerships for Children works on the full education continuum and we 
will not support ESEA reauthorization that is driven by a ``rob Peter 
to pay Paul'' mentality. If resources can be made available, adding an 
explicit initiative to promote pre-K will help provide a solid 
foundation in ESEA which can multiply the impact of other reforms in 
the act. If additional resources are not found, the very least that 
should occur during reauthorization is more guidance and incentives to 
encourage States and local education agencies to expand pre-K.
    The Prepare All Kids Act and provisions similar to the Early 
Learning Challenge Fund would be good additions to ESEA with a new pot 
of funding. Some additional ideas are present in The U.S. Department of 
Education's Blueprint for Reform for the reauthorization of ESEA. We 
urge the committee, at the very least, to consider pre-K as you develop 
the legislation in the following areas:

    <bullet> Designate high-quality pre-kindergarten as an option for 
turning around low-performing schools.
    <bullet> Include children ages 3 and 4 in the ESEA funding formulas 
including grants authorized in titles I and V.
    <bullet> Include students enrolled in publicly funded pre-K in 
State longitudinal data system.
    <bullet> Include pre-K as part of literacy initiatives.
    <bullet> Include pre-K teachers in professional development 
opportunities.

    These are but a few recommendations for promoting high-quality pre-
K and enhancing access to pre-K through ESEA. Reauthorization of the 
Act is a tremendous opportunity to create a strong State-Federal 
partnership on pre-K and create a continuum of learning from early 
childhood to post-secondary completion.
    Thank you again for the opportunity to appear before you today and 
thank you for everything you do for Pennsylvania's children.

    Senator Casey. Joan, thank you very much.
    Todd Klunk.

  STATEMENT OF TODD KLUNK, ACTING DEPUTY SECRETARY, OFFICE OF 
CHILD DEVELOPMENT AND EARLY LEARNING, PENNSYLVANIA DEPARTMENTS 
        OF PUBLIC WELFARE AND EDUCATION, HARRISBURG, PA

    Mr. Klunk. Thank you, Senator.
    I am Todd Klunk. I represent the Office of Child 
Development; I'm the acting deputy secretary. The Office of 
Child Development and Early Learning is an office with roots in 
both the Education Department as well as the Department of 
Public Welfare.
    We did hear from the witnesses today why an investment in 
early education is important. I'm not going to go into depth or 
rehash that, but I do want to say that, as we urge Congress to 
look at the facts, we do have two interesting groups that are 
supporting the investment into early childhood, that I want to 
share with you.
    In Pennsylvania, we commissioned--it's called the Early 
Learning Investment Commission. It's a group of 26 business 
leaders--CEOs and business leaders of Pennsylvania companies. 
They are supporting our investment, and we're utilizing them to 
help us make the case. I was just co-speaking with one of our 
commission members who said we have three options when we talk 
about staffing. We can either export the job, we can import the 
talent, or we can develop that talent right here in 
Pennsylvania. And so, that's the vision of the Investment 
Commission--to develop that talent here in Pennsylvania.
    As well as, recently, the Central Bank, or the Federal 
Reserve, had a lot of positive things to say about early 
childhood. And I have that on the record. The Federal Reserve 
Bank in Minneapolis actually is doing a lot of national 
discussion about the importance of investing in early 
childhood, and those payoffs.
    So, given the compelling research, the return on 
investment, and school readiness aspects of early education, 
does beg the question, ``Why aren't we reaching all children 
who are either at risk or potentially all children in the 
Commonwealth?'' And that is one of capacity. All right?
    I want to talk, briefly, two points on capacity, where we 
are now, and a call to action for Congress. Some of these stats 
are similar to Joan's, so I'm not going to dwell too much on 
the stats.
    But, again, Pennsylvania has seen remarkable growth in the 
last 7 years. We went from only one of nine States in the 
country not to have a publicly-funded pre-K program, to 
national leader. We have increased access to 3- and 4-year-
olds. We are now serving 35,000 more 3- and 4-year-olds over 
the last 7 years, with State funding streams, such as the 
Accountability Block Grant, Pre-K Counts, the Head Start State 
supplemental, as well as increases in the basic education 
funding.
    As a result of these efforts, we have doubled the 
participation and the percentage of Keystone STARS, or 
providers that participate in Keystone STARS. In 2002-3, we 
were at 32 percent, and today we're well over 75 percent. We've 
also doubled the percent of 3- and 4-year-olds participating in 
high-quality early education programs. And to date, about 36 
percent of our young children participate in publicly funded 
quality education programs.
    That's the good news. However, as everybody knows, States 
are struggling with State revenue. We proposed a budget for 
2010-11 that has--even with our strong commitment to early 
education, two of our early childhood programs are receiving a 
slight reduction in the proposed budget. In addition, just this 
week, Pennsylvania announced a $720-million projected deficit 
for this fiscal year. These reductions obviously are coming at 
a bad time for families who are impacted by the recession. 
Those families that receive less wages or less hours per week 
really don't have the financial means to send their children to 
high-quality pre-K programs.
    I will point out that the State, too, is faced with limited 
resources, as well. At the beginning of this preschool--or Pre-
K Counts year, 7,800 children applied, and were determined 
eligible, for the program that did not receive services--7,800. 
And that's a conservative estimate, because, as we all know, 
Pre-K Counts is only in pockets around the Commonwealth. We're 
not everywhere in the Commonwealth. So, when you consider all 
the eligibles, we would be a lot higher than 7,800 children. As 
well as the low-income childcare waiting list--about 4,000 
children to date, as of today, are on that low income. That's 
another means of getting children into quality pre-K 
opportunities.
    So, we do--we also, here at the Commonwealth, agree that 
there needs to be a Federal funding source. Such a dedicated 
funding source for early childhood would show a commitment by 
the feds to the importance of early childhood, and it would 
lessen the demand on State revenues. Whether it's title I or 
the Challenge Grants or Prepare All Kids legislation or the 
Elementary or Secondary Education Act, as we talk about serious 
education reform and improving student achievement, we do make 
a case that early childhood education answers that call.
    I looked over the President's Blueprint for the Elementary 
and Secondary Education Act, talked about preparing kids for 
college and career readiness. And as we talked about earlier 
today, early childhood has compelling research that we do 
prepare. Our kids that attend quality early learning programs 
are more likely to graduate and attend college. His other two 
points were to focus on English language learners as well as 
children with disabilities. And, again, we have great research, 
from our first 2 years in Pre-K Counts, where we actually are 
closing the gap on English language learners.
    So, just to quickly end here, we would urge Congress, 
again, that the funding--a dedicated early childhood funding 
stream should be flexible. We believe it should be granted to 
States so that they can work with their local school district 
and their community partners to really move their childhood 
continuum to the next level. And Pennsylvania's called upon, in 
a lot of different ways, to share our lessons learned and how 
we developed our system with other States. So, States are at 
different points in their continuum, and the development of 
that continuum, so if we had a flexible funding stream, that 
would help States make those independent decisions on what's 
next; what they need to take their system to the next level.
    I'll just end on this. You know, as we think about 
reauthorization or a Federal funding stream--staggering fact 
here, that 85 percent of the foundation for communications, 
critical thinking, problem solving, and teamwork is developed 
by age 5. So, many times by kindergarten, it's too late. And 
with just this fact alone, a Federal funding stream could be a 
real change vehicle to improve the lives of children and 
prepare them for school and life success.
    Thank you.
    [The prepared statement of Mr. Klunk follows:]
                    Prepared Statement of Todd Klunk
    Good morning. I am Todd Klunk, Acting Deputy Secretary for the 
Office of Child Development and Early Learning of the Pennsylvania 
Departments of Education and Public Welfare, and co-chair of the 
Pennsylvania Early Learning Council.
    We have heard (or will hear) from many different speakers today why 
an investment in early childhood education is important. To highlight a 
few key points:

    <bullet> There is a real return on investment--up to a $16 return 
on every dollar invested in early education.
    <bullet> Early education helps our economic growth tomorrow by 
developing productive citizens and a competitive workforce.
    <bullet> Early education is vital to our communities' health and 
infrastructure.
    <bullet> Investing in early education creates more economic 
stimulus than any other sector according to a recent study at Cornell 
University.

    To see a real return on investment in early education, a commitment 
at the Federal, State and local levels are essential.
    The positive outcomes of investing in early education are supported 
by decades of research and are being endorsed by business leaders and 
economists. In Pennsylvania, the Early Learning Investment Commission 
is composed of 26 business leaders who were appointed by Governor 
Rendell from across the commonwealth. The purpose of the Commission is 
to secure public investment in early learning programs that are 
educationally, economically and scientifically sound by means of 
increasing business, civic and public awareness of the importance of 
early childhood education. The support of our business leaders is 
flourishing as we now have six regional business coalitions working in 
different parts of the States.
    Additionally the central bank of the United States had this to say 
about early childhood education:

          ``Although education and the acquisition of skills is a 
        lifelong process, starting early in life is crucial. Recent 
        research--some sponsored by the Federal Reserve Bank of 
        Minneapolis in collaboration with the University of Minnesota--
        has documented the high returns that early childhood programs 
        can pay in terms of subsequent educational attainment and in 
        lower rates of social problems, such as teenage pregnancy and 
        welfare dependency.''

(Remarks by Federal Reserve Board Chairman Ben S. Bernanke, Before the 
Greater Omaha Chamber of Commerce, February 6, 2007)
    With this high rate of return, why are not all at-risk children 
being served and efforts being made to serve all children in high 
quality early learning programs?
    Pennsylvania's early learning programs have seen remarkable growth, 
but we still cannot reach all children who can benefit. Since 2003, 
Pennsylvania has moved from one of nine States to offer no publicly 
funded pre-kindergarten to one of the Nation's leaders in early 
education. We have made good progress over the last 7 years adding 
funding to serve 3- and 4-year-olds through the Accountability Block 
Grant, Pennsylvania Pre-K Counts, Head Start Supplemental and increases 
to basic education subsidies. Through these efforts we are serving an 
additional 35,000 children.
    In addition, Pennsylvania is one of the first States to:

    <bullet> Establish learning standards for early childhood from 
birth through third grade and commission an independent study to ensure 
alignment of all standards;
    <bullet> Establish a State-funded quality pre-kindergarten system 
that includes both school-based and community-based early education 
programs (Pennsylvania Pre-K Counts);
    <bullet> Create a cohesive Office of Child Development and Early 
Learning (OCDEL) that brings together the resources and expertise for 
early education, spanning across State agencies; and
    <bullet> Develop a common set of child outcomes assessments for all 
State-funded early learning programs and a system to report outcomes 
(Early Learning Network).

    As a result of these efforts to build a quality early education 
continuum:

    <bullet> the percentage of child care centers participating in 
Keystone STARS has more than doubled (from 32 percent in 2002-3 to 75 
percent in 2008-9);
    <bullet> the percentage of school districts offering pre-
kindergarten programs has quadrupled (from 6 percent in 2003-4 to 26 
percent in 2008-9); and
    <bullet> the percentage of Pennsylvania's 3- and 4-year olds 
participating in high quality early education programs has doubled 
(from 18 percent in 2002-3 to 35 percent in 2008-9).

    Pennsylvania has increased its commitment to early education for 
several years so that approximately 36 percent of our young children 
participate in publicly funded quality early education programs.
    However, Pennsylvania has been struggling with State revenues, as 
are all States. Even with our high commitment to early education, the 
fiscal year 2010-11 State budget calls for cuts to some early education 
services to children because State funds are simply not available. 
Recently, Pennsylvania announced an estimated $720 million State 
deficit for the current fiscal year. If revenue does not begin to 
balance with our proposed budgets, additional reductions are imminent.
    These reductions to early childhood programs are coming at a time 
when families impacted by the economic recession do not have sufficient 
funds to place their children in a quality pre-kindergarten program and 
State programs are faced with waiting lists. At the beginning of this 
school year, there were 7,800 eligible children who applied for PA Pre-
K Counts who could not be enrolled because of a lack of resources. This 
is twice the number of children on waiting lists at the start of the 
2008-9 school year. Considering that PA Pre-K Counts classrooms are 
targeted to serve areas with the highest percent of children in low-
income families, there are many other areas with eligible low-income 
children that are not included in the wait list count.
    New Federal funding is needed to help close the national gap 
between children who are at-risk of school failure and not in quality 
early learning programs. Such an effort would show a serious commitment 
by the Federal Government to early childhood education and a better 
balance of public investment--lessening the demand on State revenues.
    The Elementary and Secondary Education Act provides an opportunity 
for an appropriate public funding base for early education. As the 
Nation works to reform education to improve student achievement so that 
all students are college- and 
career-ready, now is the time. Early education, supported by research, 
will meet many of the President's Blueprint Goals for the ESEA. We know 
that children who participate in quality early education programs are 
more likely to do well in school and graduate high school and attend 
college. Quality early education is the most effective and cost-
efficient way to prepare all children for school--especially those at 
risk of school failure. For children enrolled in PA Pre-K Counts last 
year, for example, progress was made in closing achievement gaps for 
English Language Learners and children with developmental delays or 
disabilities. For instance, Spanish-speaking children were three times 
more likely than English-speaking children to begin the year without 
age-expected language and literacy skills. By the end of the year, 
Spanish-speaking children participating in Pre-K Counts had closed the 
gap--ending the year with less than 2 percent of children still without 
age-expected skills. It is more costly and less effective to wait and 
try to remediate problems later.
    The ESEA could afford States an opportunity to strategically 
restructure their entire birth to five continuum of services. The ESEA 
should provide a dedicated early childhood education funding stream 
directly to States with flexibility to allow all States an opportunity 
for systemic changes across the birth--five continuum. By providing a 
dedicated early education funding stream to the States--not directly to 
the local education agencies--States could work with their State 
advisory committees and other early education stakeholders to determine 
how best to move their early childhood continuum to the next level. The 
ESEA could allow States to implement or expand pre-kindergarten 
opportunities, continuous quality improvement systems, infant and 
toddler initiatives, home visiting models, and/or build better 
infrastructures such as information technology solutions to improve 
accountability, monitoring and instruction.
    Serious education reform must include early education. As the 
Nation begins reauthorization, we need to remember the research studies 
that document more than 85 percent of the foundation for 
communications, critical thinking, problem solving and teamwork is 
developed by age 5. With just this fact alone, the ESEA could be a 
change vehicle that improves the lives of young children across the 
Nation and prepares them for school and life success.
    I thank you for this opportunity.
                                 ______
                                 
     Appendix 1.--PA Office of Child Development & Early Learning 
                           Selected Programs
    Child Care Certification--certification and inspection of 
approximately 9,000 regulated child care programs serving 350,000 
children.
    Child Care Works--tuition assistance for 130,000 children (monthly 
average) of low-income working families.
    Children's Trust Fund--initiatives to prevent child abuse as 
determined by the Trust Fund board, a mixed group of legislators and 
gubernatorial appointees, and staffed by OCDEL.
    Community Engagement--local groups to work on community education 
on early childhood education and to focus on the transition between 
community early childhood education programs and school district K-12 
programs.
    Early Childhood Mental Health Initiative--early childhood mental 
health specialists who consult with Keystone STARS programs about 
program and child needs and interventions when behavioral issues with 
children arise.
    Early Learning Network--To use technology to collect indicators of 
child outcomes so that the analysis of this information can be used to 
better manage State investments for early learning programs. 
Pennsylvania's goal is to use the information to manage its finances 
more effectively by targeting resources to those programs and services 
that bring about good progress while considering individual 
circumstances and demographics that also may affect results. This 
information will also be available to local teachers and administrators 
and provide them with real time data so that they may continuously 
improve their performance to better meet the needs of the children they 
serve. The objectives are:

    1. To know if Pennsylvania's early education programs are making a 
difference,
    2. To understand how financial resource levels relate to child 
outcomes,
    3. To meet State and Federal reporting requirements related to 
child progress,
    4. To compare programs serving similar types of children on ability 
to enhance child progress,
    5. To tailor professional development and technical assistance to 
address most pressing early learning needs, and
    6. To understand how program factors work together to impact 
children.

    Full Day Kindergarten (through Accountability Block Grant)--
dedicated resources for school districts to implement research-based 
interventions that improve student performance, with nearly \2/3\ of 
the money invested in Full-Day Kindergarten now serving 65 percent of 
PA children and with OCDEL providing on-site observations and 
professional development for teachers and administrators.
    Early Intervention Birth to Five--Infant/Toddler and Preschool 
Early Intervention (under IDEA) for approximately 80,000 children with 
developmental delays and disabilities.
    Early Intervention Technical Assistance--professional development 
and technical assistance for sound implementation of Early Intervention 
services, including new communications certification.
    Head Start State Supplemental Assistance Program--State resources 
to enroll over 4,000 more children in Head Start.
    Keystone Babies--Keystone Babies is a voluntary, center-based 
program offered to Pennsylvania Keystone STAR 3 or 4 programs applying 
for a classroom of infants and toddlers who are enrolled in the Child 
Care Works program. Pilot to serve approximately 200 children in 2010-
11.
    Keystone STARS--a quality rating and improvement system serving 
over 170,000 children enrolled in thousands of child care programs with 
a combination of standards, financial and professional supports, and 
third party monitoring on accountability.
    Nurse Family Partnership--evidence-based nurse based home visiting 
model for very high risk first-time mothers and their young children.
    Parent Child Home Literacy Program--evidence-based play and 
literacy based home visiting program for at-risk young children with a 
focus on toddlers.
    PA Early Learning Keys to Quality-regionalized approach to improved 
professional development of early education teachers, aides and 
administrators, offering a career lattice with resources to obtain 
early childhood degrees and credentials, and technical assistance to 
support program quality improvement. Statewide, support for the 
T.E.A.C.H. educational scholarship program, a voucher program for 
practitioners in Keystone STARS and PA Pre-K Counts earning college 
credits, an articulation project with the Pennsylvania State System of 
Higher Education to bring 2- and 4-year colleges together to assure 
program to program articulation and transfer in early childhood 
education; an oversight system for certifying instructors and technical 
assistance staff to deliver professional development; support for PA 
certification programs in early childhood, including director's 
credential and school-age credential. Additional statewide and regional 
supports are also in place, all linked to the programs engaged in 
quality through STARS, EI, Pre-K Counts, etc.
    PA Pre-K Counts-preschool program of 2.5 or 5 hours a day, 180 days 
a year, for at-risk 3- and 4-year-olds, with high standards, offered by 
a diverse array of school districts, Keystone STARS, Head Start, and 
licensed nursery school programs.
    PA's Promise for Children--public information resources to inform 
and educate parents, business leaders and others in the general 
community about early childhood education.
    Public-Private Partnerships--These are partnerships with 
foundations and the research community and include Pennsylvania's 
participation in the national BUILD initiative, a financial investment 
by foundations in the Early Learning Network, the Early Learning 
Investment Commission, community engagement, and continued development 
of the capacity of higher education to assist community-based teachers 
earn early childhood teacher certification by responding to their 
unique needs.

                 Appendix 2.--Children Served Over Time
------------------------------------------------------------------------
                                                  FY 2009-     FY 2010-
            Program                FY 2002-3       10\1\        11\1\
------------------------------------------------------------------------
Class Size Reduction:
  K-3rd Grade.................   Did not exist    16,705\2\    16,705\2\
Child Care Works:
  TANF........................          33,939       34,743       37,012
  Former TANF:................          20.000       33,223       32,746
  Low income..................          45,908       59,825       64,614
                               -----------------------------------------
    Total (monthly average)...          99,847      127,791      134,372
Early Intervention:
  Birth to 3 program..........          22,020       33,212       34,384
  3 to 5 program..............          33,726       46,052       47,312
Full Day Kindergarten:                  42,015       80,454       80,454
Head Start:
  Total Head Start in PA......          30,986    35,311\2\    35,311\2\
  Supplemental Assistance        Did not exist     5,743\2\     5,626\1\
   Program....................
Keystone STARS:
  Estimated children in                 45,745      177,530      177,530
   Keystone STARS.............
  Number of providers in                   898        4,464        4,464
   Keystone Stars.............
Nurse-Family Partnership......           3,092        4,247     4,247\2\
Pre-K:
  School-based Pre-K and K-4..           2,682        9,256       14,675
  PA Pre-K Counts.............   Did not exist       11,800    11,732\1\
------------------------------------------------------------------------
\1\ Fiscal Year-End Goal or Projection.
\2\ Projection based on previous FY program.

   Appendix 3.--Pennsylvania 2008-9 Reach and Risk Executive Summary*
    One of the most important ways to help children reach their 
potential and succeed is through quality early education. Quality early 
education opportunities are especially important for children affected 
by conditions that make them at risk to fail in school. When children 
affected by risk factors such as living in low-income families or low 
education level of the mother have access to quality early education 
before age 5, these children can often make up for setbacks in their 
development, enabling them to enter kindergarten on par with their 
peers.
---------------------------------------------------------------------------
    * http://www.pakeys.org/pages/get.aspx?page=EarlyLearning_Reach.
---------------------------------------------------------------------------
    Children who are encouraged and supported through quality early 
childhood education demonstrate significant progress in acquiring early 
learning skills and may save schools money for special education and 
remediation costs. These children are more likely to graduate from high 
school, to attend college or quality job training programs, and be 
valuable members of the workforce. The benefits of quality early 
education to children and families translate into a more competitive 
workforce and greater tax base, while reducing public expenses in 
special education costs, public assistance, crime control and lost 
taxes.
    It is in Pennsylvania's best interest to invest in quality early 
education because it will provide our communities with benefits for 
years to come, but it is important that these investments are 
strategically made to provide the greatest return possible for the 
commonwealth with our limited resources.
    In order to support sound programmatic and investment decisions 
regarding the distribution of early education services, the 
Pennsylvania Office of Child Development and Early Learning (OCDEL) 
annually compiles the Program Reach and Risk Report. This report 
provides county--as well as city--specific information on the level of 
risk for school failure for children (based on seven risk factors) and 
the availability, or reach, of most OCDEL programs to children in each 
county and in the 27 largest cities in Pennsylvania. This is the third 
year of the report.
    To enhance the Reach and Risk report, OCDEL includes a breakdown of 
reach of programs by infant/toddlers (birth--2 years); preschool (ages 
three and four; and all children under age five served.
    OCDEL's Program Reach and Risk Assessment for fiscal year 2008-9 
shows that Pennsylvania continues to make progress serving young 
children, but still experiences gaps in serving children who could 
benefit the most from a quality early education experience, especially 
serving infants and toddlers.
                                  risk
    <bullet> Children are at risk of school failure throughout the 
commonwealth. Of the 67 counties, children in 51 (76 percent) counties 
are at moderate-high or high risk of school failure; of the 27 largest 
cities, children in 24 (89 percent) are at moderate-high or high risk 
of school failure. Every community has children affected by risk 
factors for school failure. For example, approximately one-third of 
children in Pennsylvania (37 percent) under age 5 are living in low-
income families; each county has at least 15 percent of its children 
under age five living in low-income families. In 20 of our 27 largest 
cities, more than half of the children under age 5 live in low-income 
families.
                                 reach
    <bullet> Approximately one-third (36 percent) of children under age 
five participate in State and/or federally funded quality early 
childhood education programs. In the commonwealth's 27 largest cities, 
more than half (56 percent) of children under age 5 participate in 
State and/or federally funded quality early childhood programs. Quality 
programs are defined as: Nurse-Family Partnership, Parent Child Home 
Program, Head Start State and Federal, Pennsylvania Pre-K Counts, PA 
Pact for Pre-K, School-Based Pre-K, Early Intervention, and Keystone 
STARS.
    <bullet> Reach by county is greatest for Keystone STARS (15 
percent), Early Intervention (11 percent) and Head Start (5 percent). 
These programs are the only direct impact programs for children under 
the age of 5 to reach children in all 67 counties.
    <bullet> Reach is greatest across the commonwealth for Keystone 
STARS. Of all the State investments, most children were reached through 
the Keystone STARS program, which provides service to 15 percent of 
children from birth to age 5. Three percent of children under age 5 in 
Pennsylvania were served in STAR 3 and 4 programs. As of May 2009, 
there were 4,282 child care providers within the Keystone STARS system, 
covering all counties and reaching an estimated 107,546 children under 
age 5.
    <bullet> Less than one-fifth (19 percent) of Pennsylvania's infants 
and toddlers participate in quality early education programs. Among 
children under age three statewide, approximately 10 percent are served 
by Keystone STARS, 0.5 percent are served by Early Head Start, and 7 
percent are served by Early Intervention.
    <bullet> Approximately half (55 percent) of Pennsylvania's 
preschoolers (3- and 4-year-olds) are served in State and/or federally 
funded quality early childhood programs. Twenty-two percent of 3- and 
4-year-olds are served by Keystone STARS, 11 percent are served by 
State and Federal Head Start, and 10 percent are served by Early 
Intervention.
            investment in quality early childhood education
    <bullet> Pennsylvania's investment per child served under the age 
of 5 is $3,033 annually. Children receiving service in these State and 
federally funded early childhood programs are funded at the rate of 
approximately $3,033 per child served, an amount which is significantly 
less than the cost of providing a quality early education experience 
that produces positive outcomes for children, families and communities. 
In general, the national cost for a 5-hour day at 180 days a year for a 
pre-kindergarten program is $8,700 per child. This represents a gap in 
our public investment to achieve the most positive results for 
children.
    The quality of a child's early education affects their learning for 
life. By understanding the needs of our young children across the 
commonwealth and the reach of our early childhood programs, 
Pennsylvania can make smarter investments in a brighter future.
                        Appendix 4.--Highlights
               1. 2008-9 excerpt from ocdel annual report
    In 2008-9 OCDEL focused on creating more quality early learning 
opportunities for children, assuring strong implementation and 
coordination among programs, building accountability into the system, 
and beginning development of a system to document positive outcomes for 
children. Here are some highlights from the year:
Strive for Higher Quality and Reach all Children and Families That can 
        Benefit
    <bullet> Pennsylvania revised its child care regulations for the 
first time in 16 years.
    <bullet> OCDEL completed a nine-part series of training videos on 
the Learning Standards for Early Childhood to help early learning 
directors, teachers and staff make the most of this resource. New 
parent companion guides to the learning standards were also released, 
including Learning Is Everywhere, a birth-5 activity guide that 
provides activities for families to do together in various learning 
locations and Kindergarten, Here I Am, a 15-month activity guide that 
supports skill-building activities before, during and after 
kindergarten.
    <bullet> OCDEL published its second Program Reach and Risk 
Assessment Report, including information on risk and reach for each 
county and Pennsylvania's 27 largest cities.
    <bullet> OCDEL published its English Language Learner Toolkit to 
help early education providers increase their cultural competence and 
provide higher quality experiences to English Language Learners and 
their families.
    <bullet> OCDEL's Braiding Preschool Funding Task Force provided 
tools and professional development to early education programs for 
making most efficient use of the various State and Federal funding 
streams available for pre-kindergarten.
    <bullet> OCDEL and Early Intervention Technical Assistance piloted 
a new professional development series that results in a credential in 
Early Intervention Language Special Instruction.
    <bullet> In 2008, Pennsylvania was one of seven States invited to 
develop a plan to integrate the Strengthening Families approach into 
its programs.
                                 Result
    <bullet> Overall, the alignment study of Pennsylvania's Learning 
Standards for Early Childhood found the standards and assessments are 
strong and show good alignment across grade levels.
    <bullet> Nearly one-third (32 percent) of Keystone STARS programs 
moved up at least one STAR level in 2008-9. There was a 30 percent 
increase in the number of STAR 3 and 4 programs between 2007-8 and 
2008-9.
    <bullet> Environment Rating Scale scores have increased among 
Keystone STARS programs for 2008-9. The overall average score for STAR 
3 sites was 5.23 in 2008-9, which is an increase from 2007-8 when the 
average score was 5.06. STAR 4 sites scored an overall average of 5.48 
in 2008-9, which is an increase from 2007-8 when the average score was 
5.31.
    <bullet> More families accessing Child Care Works subsidy are using 
regulated care than ever before, with 70 percent of TANF children 
receiving child care assistance are using regulated child care in 2008-
9, a 38 percent increase since Child Care Information Services (CCIS) 
agencies began providing child care services to TANF families in 2006-
7.
    <bullet> Nearly all (95 percent) children in Pennsylvania Pre-K 
Counts classrooms were affected by at least one risk factor for 
academic failure, such as living in low-income families, learning 
English as a second language, or having disabilities or developmental 
delays. Most (77 percent) were affected by two or more risk factors, 
making them more likely to struggle in school.
    <bullet> 60 percent more bachelor's degree scholarships were 
awarded through T.E.A.C.H. than in 2007-8.
    <bullet> There was a 76 percent increase in the number of 
Director's Credentials awarded between 2007-8 and 2008-9.
    <bullet> Over the past 2 years, OCDEL has observed a nearly 15 
percent increase in the number of children receiving Early Intervention 
services included in typical early childhood programs, resulting in a 
total of 63 percent of all children in preschool Early Intervention 
receiving their services in these settings (e.g. child care, Head 
Start, preschool) in 2008-9.
Refine Accountability and Document Positive Outcomes for Children
    <bullet> In 2008-9 Pennsylvania developed the Keystone STARS 
Technical Assistance Quality Assurance and Accountability System to 
support consistency and quality in technical assistance across the 
commonwealth.
    <bullet> OCDEL continued development of Pennsylvania's Enterprise 
to Link Information for Children Across Networks (PELICAN). In 2008-9, 
PELICAN Pennsylvania Pre-K Counts entered phase two. PELICAN Infant/
Toddler Early Intervention was piloted in four counties and preparation 
began for development of PELICAN Preschool Early Intervention.
    <bullet> The next phase of Pennsylvania's Early Learning Network 
began with Early Intervention programs and Pennsylvania Pre-K Counts 
programs reporting child outcomes online through the Ounce and Work 
Sampling online reporting tools.
                                Results
    <bullet> In 2008-9, ERS assessors conducted approximately 1,680 
classroom assessments, a 75 percent increase from 2007-8.
    <bullet> Nearly every child (99 percent) showed age-appropriate or 
emerging age-appropriate proficiency in literacy, numeracy, and social 
skills after attending the Pennsylvania Pre-K Counts program.
    <bullet> 57 percent of the preschool children who entered Early 
Intervention after July 1, 2008 and exited Early Intervention prior to 
June 30, 2009 actually function within age expectations.
    <bullet> 75 percent of children receiving Early Childhood Mental 
Health Consultation services demonstrated that their original issues 
had ceased or had significantly decreased or that had been successfully 
referred to other support services.
Build Leadership in Our Communities and Among State Decisionmakers to 
        Champion Quality Early Education as a Priority for Pennsylvania
    <bullet> Governor Rendell created by Executive Order the 
Pennsylvania Early Learning Council and Early Learning Investment 
Commission as avenues to include the early education and business 
communities in policy development and outreach.
    <bullet> Expanded Pennsylvania's Promise for Children campaign with 
upgraded Pennsylvania's Promise for Children Web site to include 
``Early Education in My County'' and Tell Your Story sections.
    <bullet> Community Engagement Groups reported that over 1.6 million 
children, parents and community members throughout the commonwealth 
were involved in events such as recognition events, legislative 
meetings, Week of the Young Child events, or community fairs.
                                Results
    <bullet> Between July 2008-June 2009, the number of PA Promise 
declarations more than doubled from 4,303 to 9,887 declarations.
    <bullet> Between July 2008-June 2009, the number of Build News 
subscribers more than doubled from 3,403 to 8,045 subscribers.
Vision for Tomorrow
    Building a quality early education continuum is a marathon, not a 
sprint. Each year Pennsylvania has refined a system through continuous 
quality improvement and serving more children.
    In 2009-10, Pennsylvania will continue its work to create a more 
seamless pathway of professional development for early childhood 
educators at all levels; increase accountability and documenting 
positive outcomes; align the early education system with the full 
education continuum; and build leadership at all levels.
2. using the ocdel framework, a high level overview of progress to date 

                          and work in progress
Planning Monitoring and Accountability
    Have:

    <bullet> Quantitative and qualitative measures to assess program 
quality and performance.
    <bullet> Standards and support to help people and programs meet 
standards & expectations.
    <bullet> Ranking of each community of risk to children and reach of 
OCDEL programs for all children.

    Working on:

    <bullet> Creating the Early Learning Network.
    <bullet> One reporting system for assessment of children in ALL of 
our programs.
    <bullet> Comprehensive data system taking into account child's 
background and public investment in the program.
Standards & Assistance to Meet Them
    Have:

    <bullet> Early Learning standards birth-2d grade that have been 
refined to fully mesh with 3rd grade standards in response to the 
alignment study we commissioned.
    <bullet> Program quality standards.
    <bullet> Early childhood professional standards.
    <bullet> Early childhood career lattice.
    <bullet> Professional development, technical assistance, and higher 
education assistance for building staff and program capacity.

    Working on:

    <bullet> Smooth transfer of college credit for practitioners from 
2- to 4-year institutions, and across 4-year institutions of higher 
learning.
    <bullet> Strengthening Families/Preventing Child Abuse 
implementation.
    <bullet> Practices to support administrators and teachers in 
responding to the diverse needs of young learners.
    <bullet> Integrating early childhood education into Pennsylvania's 
K-12 Standards Aligned System.

Financing
    Have:

    <bullet> New funding streams to fill some gaps in building ECE 
system.
    <bullet> Strong connections between financing, standards and 
accountability.
    <bullet> Help for providers to combine funds from different funding 
streams.

    Working on:

    <bullet> Help to address additional ``gaps'' in financing to reach 
children and to provide sufficient resources.
Parents: Engagement and Outreach
    Have:

    <bullet> Counseling: face to face, phone, computer search.
    <bullet> Parent Advisory Council for input and advice.
    <bullet> OCDEL wide parent survey for parents in all OCDEL programs 
on satisfaction and ideas for improvement.
    <bullet> ``Tip sheets''.
    <bullet> Advocacy training for parents.

    Working on:

    <bullet> On-line search for all early childhood programs.
    <bullet> More parent engagement in public policy and outreach.
Partnerships: Engagement and Outreach
    Strong commitment to leadership at all levels:

    <bullet> Governor's Early Learning Council.
    <bullet> Governor's Early Learning Investment Commission (CEO 
group).
    <bullet> Public awareness campaign on value of quality early 
education.
    <bullet> Engaging leaders and communities to become children's 
champions.

    Strong partnerships with foundations/philanthropy.
    Research and data to inform public policy and outreach.
    Unified messaging and framework for all to use.

    Senator Casey. Todd, thank you very much.
    I want to thank all of our witnesses. We've got about 20 
minutes for a discussion and some questions. But, I did want to 
highlight a couple of points before we get to questions.
    First of all, the reason we have field hearings like this 
is to inform and, I think, amplify the record on these issues 
for when we debate them in Washington. And in this case we're 
talking about the reauthorization of the Elementary and 
Secondary Education Act, which a lot of people know by the 
popular name No Child Left Behind. All kinds of debates about 
what should change on No Child Left Behind. I'm sure if we went 
to every chair in this room, and every space in this room, 
someone would have an opinion about what to do. But, suffice it 
to say that this is not a hearing for our committee that is 
just to throw out theories. We have, as you've heard, a lot of 
very compelling evidence, either by way or research and data or 
real life experience here in Morrisville and places across the 
State, where this is working. And we know it's necessary.
    One of the basic reasons to have a hearing like this--and 
by the way, it's rare that we have these hearings. We don't 
have many of these in the States, because we tend to be in 
Washington more. We're doing hearings there and we have the 
opportunity to do hearings in the State.
    I want you to know also that, as we work on this 
reauthorization, despite what you've read and seen on 
healthcare, where there's a real partisan and party divide, I 
really believe, on a lot of this work, there's going to be 
bipartisanship. We hope there's substantial bipartisanship when 
it comes to early education, because it's critically important. 
This should not be a Democratic or Republican issue only. It 
should be a bipartisan issue, and I think it will.
    I think we're seeing evidence already--or, I should say, 
``good examples'' of bipartisanship, by way of the work of our 
two chairmen. The chairman, Chairman Tom Harkin, from Iowa, who 
took over for Senator Kennedy, when he passed away, and the 
Ranking Member, the Republican on the committee, Mike Enzi, 
from Wyoming. You have a Democrat and a Republican, who have 
different philosophies, different points of view on a lot of 
issues, but on this issue, about education issues in 
particular, I think you're going to see some common ground.
    I do not underestimate the work that it will take, however, 
even with bipartisanship, even with the reauthorization, to get 
done what we have to get done on early education. One of the 
reasons why we've decided to push forward with this hearing is 
because we not only have a reauthorization process, but I have 
a bill. And, candidly, it's the best bill in the Senate on this 
issue.
    [Laughter.]
    It's Senate bill 839. It's a bill that I introduced back in 
2007 and 2008, and that Congress--as you know we have these 
Congresses in 2-year increments--and then I reintroduced it in 
2009 for this Congress.
    It has a couple of basic elements. First of all, we want to 
make sure that any early education program has a curriculum 
that's research-based. We want to make sure that the best 
teachers are available to those students in those environments. 
We want to make sure that if a State implements a plan or a 
program, that it's monitored and we see results. We're seeing 
good evidence of that in Pennsylvania. We want to make sure 
that a program like this doesn't compete with or injure or 
diminish the chances for funding and continued investments in 
Head Start and other early education or childcare programs. So, 
we don't want to have a pre-Kindergarten program replace Head 
Start. That's not what we're doing here. We want to have both. 
We need both. And I think that's an important point to make. We 
want to make sure that we focus in a particular way on low-
income students in those communities across the State and 
across the country.
    So, there are a lot of elements to that bill that I won't 
go through now, but suffice it to say that we've got a 
critically important opportunity here, and also, I think, an 
opportunity that doesn't come along very often.
    I think Joan Benso's analogy is very important, when it 
comes to demonstrating that Pennsylvania led the way on 
children's health insurance that then became a national 
program. And it's important that we recognize how well 
Pennsylvania's done in the last 7 years on these issues. We 
know, from Joan's testimony and other testimony, Todd and 
others, about how well Pennsylvania has done, how far it has 
come. But, it cannot continue the journey substantially, cannot 
complete the journey, without help from the Federal Government.
    I was noting, today, some of the testimony I thought that 
leaped off the page. Sometimes as important as the policy and 
the data is the evidence from testimony. Melissa Bowman's 
testimony, one phrase leaped off the page when I was reading 
it. In the fourth paragraph of her testimony, she said, ``These 
children''--the children who had benefited from a good 
program--``left my class ready to be the leaders and role 
models in their new kindergarten classrooms.'' Ready to be the 
leaders and role models.
    I think there's plenty of evidence to show that those 
children will not just be the leaders and the role models for 
the next grade level they go into, but, in fact, they can be--
because of a program like this--the leaders and role models for 
society. And we know that from the evidence. But, we also 
know--and I was looking at Joan's testimony--how challenging 
this is. With all the progress that's been made, with all of 
the good work and all of the investment that this State has 
made, we still have a long way to go. Part of Joan's testimony 
said there are about, ``295,000 3- and 4-year-olds in 
Pennsylvania''--almost 300,000 kids, just 3 and 4 years old--
``Less than 18 percent of these children have access to high-
quality public-funded pre-K.'' Less than 18 percent; as she 
said, one in five.
    So, we know the benefits. We know how well it works. But, 
we also know the shortfall. And the shortfall--the gap in 
funding is commensurate with the gap in achievement. And that's 
why the Federal Government has to ramp this up and get directly 
involved in a way that we've never done before.
    Now, my original version of the bill, 2 years ago, had 
funding levels starting at $5 billion, going to $6 billion the 
second year, going to $7 billion the third year, and all the 
way up to a $9-billion funding level in year 5. I would like to 
be able to say my current version of the bill has that; it 
doesn't, for a very basic reason. We want to be realistic about 
the numbers in the funding, but we also don't want to 
shortchange or diminish or scale back our horizons. We have to 
do this. And we have to fund it.
    The money question, the funding question, will be debated; 
whether it's a billion dollars or it's some number higher than 
that, we won't know for sure anytime soon. But we have to make 
sure that we're committed to doing this as a nation, for a lot 
of reasons.
    I was reading some testimony from some Pennsylvanians who 
sent in letters, and I won't give away identities here, but 
this is from central Pennsylvania, where a parent writes about 
their son--or one parent, I should say, writes about their son, 
that, ``This particular program provided him with new 
opportunities of learning and interaction.'' And then goes 
teacher by teacher and what those instructors, those teachers 
have meant to this child--and this is talking about one 
teacher--``She is willing to do whatever it takes to help him 
succeed. And she has displayed much patience''--and goes on 
from there--``the patience and the skill and the commitment of 
that teacher.''
    What we've got to do is, do the same, the same commitment 
that that teacher brings to that child, doing whatever it 
takes. That's the kind of commitment that we need here.
    So, I wanted to ask a couple of questions. And the panel 
and the witnesses certainly can amplify on what I say, and ask 
their own questions. And maybe even, if we have a chance, some 
from the audience.
    But, I guess I wanted to get a sense of--maybe starting 
with Dr. Yonson and Ms. Fina--when it comes to children with 
special needs, how do you compensate now for the fact that 
sometimes you don't have the resources that you need? And how 
do you think that would work, in terms of just getting from 
here to there, getting from a point where you don't have enough 
of the resources now, to where you'd like to be, with a full 
commitment to early education, especially for children that 
have special needs? Could you talk to that--speak to that?
    Ms. Yonson. Well as you had--as all of the panelists 
indicated, this pre-K is funded because we have money from the 
State through Pre-K Counts. And Mrs. Bowman also told you that 
she is now in kindergarten because the State had not passed 
their budget, which meant that perhaps we would not have a pre-
Kindergarten program. We do not have money in our budget to 
have that pre-Kindergarten program.
    I did a lot of writing to our legislators, and phone calls, 
to ensure that that would have been included in the budget. 
But, if we had not, we would not have had a pre-K program this 
year. And those children, the successes that you have seen, 
that I talked about, that my teachers shared with me, they just 
would not have been able to be realized in the future, because 
this class would not have been. Luckily, the State came through 
with the money for pre-K, and so we were able to continue. But, 
again, we only have so--there's so many more children that we 
could serve if there was more money available.
    So, we do the best with what we have right now. Our 
teachers are excellent. They do a wonderful job. But, again, 
there's only so much in the pot. Now, if the children have not 
had a pre-quality experience and they come to us in 
kindergarten we identify those children who have special needs. 
And maybe it's not in kindergarten, it might be in first grade. 
But, the longer it takes to identify, the harder it is to bring 
the children up to that level playing field.
    So, I think that it really is critical to continue pre-K. 
You might--I'm sure you do realize, Senator Casey, that, in 
Pennsylvania, kindergarten is not mandated. We do not--luckily, 
every single school district has it, but it is not something, 
in school code, that we must have a kindergarten. And so, here 
we're asking the State, and now the Federal Government, to 
assist us, because we know that, as another witness--I think, 
was Mrs. Fina--had said, ``90 percent of a child's brain is 
formed by the time they're 5 years old.'' So, if we don't reach 
them early, we're way behind the eight ball. Way behind.
    Ms. Fina. Senator Casey, we have a wonderful relationship 
with the Bucks County Intermediate Unit. We have children who 
were identified before they came to us and children who have 
been identified in our program. And I believe we have 
therapists that come, probably 4 days a week, who spend time in 
our Pre-K Counts classroom. It has been enormously wonderful, 
this relationship. And I'm looking right at our IU people, 
right there. We have children that we need to identify. We give 
the parents the number, the parents call, the IU comes out.
    Senator Casey. Well, it's so important to be able to form 
those partnerships. And I have to say that the same kind of 
spirit, I think, has infused the partnerships that we've seen 
across the State. Joan Benso and I were recalling a decade ago, 
when this became more than just an issue for educators and for 
child advocates, it became an issue for the Pennsylvania 
Business Roundtable. You know, those CEOs of big companies, who 
are usually talking about taxes and regulation, and taxes and 
regulation, and taxes and regulation--that's all they, 
sometimes, focus on--were finally talking about investments in 
early learning, in terms of developing a stronger and more 
skilled workforce to be able to compete with countries around 
the world. So, we've gotten strong partnerships from the 
business community, working with Governor Rendell and his team, 
working with educators and child advocates across the State.
    I want to ask Joan and Dr. Ackerman, and Todd--any other 
points on the research that you didn't have a chance to make, 
or that would provide additional evidence for why we need to 
move forward with a Federal commitment here.
    Ms. Ackerman. The only thing I would add is that, while the 
field does not yet have a precise input formula, in terms of, 
``If you do this, this, this, and this for this group of 
children, you're guaranteed this particular outcome,'' that 
there are no studies to suggest that, by using teachers that 
only have a high school degree, or not using a research-based 
curriculum, or not aligning your practice with early learning 
standards--no study demonstrates that, if you don't do those 
things, you're going to get those outcomes. So, for me, my 
final takeaway message would be to really focus on the quality 
of the program, in terms of all the things that were mentioned 
here today: teacher credentials, class size, sufficient funding 
so that a room can be equipped properly, access to support 
professionals, particularly for children with special needs, 
ongoing support and supervision for teachers, alignment with 
early learning standards, and very high program standards, as 
well.
    Ms. Benso. I think, Senator, that there's--in this really 
difficult economy that, you know, our communities and our State 
and our Nation are facing--I think, well-intentioned 
policymakers sometimes approach these matters by saying, 
``Well, let's cast the net really wide,'' and we end up going 
an inch deep, as opposed to going deep for fewer children. And 
I think the literature is extremely clear in early education, 
much more so than many other interventions for kids, because 
some of the research Dr. Ackerman spoke about today, she and 
her colleagues have been studying for more than 30 years. They 
didn't decide it last week.
    I think what's most important is that, if we are going to 
use the taxpayers' dollars in this most difficult economic 
time, that we buy what works. And we know what works. So, to 
advance additional State funding or Federal funding without 
rigorous program guidelines is fool-hearted, and it's a waste 
of the taxpayers' money. And to back pedal where we have 
already strong State program guidelines, and in some areas 
strong Federal guidelines, would be the same.
    So, I think the single most important thing I would like to 
see you continue to have leadership on is that, exactly as Dr. 
Ackerman said, quality matters. You know, it may take us 10 
years or 20 more years so all preschoolers in Pennsylvania and 
in America benefit from a high-quality program, but giving more 
preschoolers a poor-quality program is not going to get us much 
of anything. So, deep. Go deep.
    Senator Casey. So, we'll make sure we have the adjective 
before pre-K, quality or high quality.
    Ms. Benso. Right. Right, high quality. And, you know, my 
flip humor--you know me too well--is, let's just not do pre-K 
light, because pre-K light's not going to work. And it may make 
us feel good to deal with how few children we're able to serve 
now, but in the long run it's a much more prudent investment of 
our taxpayers' hard-earned dollars to invest in very high-
quality programs and get results.
    Ms. Ackerman. May I add one more thing?
    Senator Casey. Sure.
    Ms. Ackerman. One thing that I would add, as well, is that 
I am not at all saying that pre-K should only take place in 
public schools. In fact, in New Jersey, which has an extremely 
high-quality program, 65 percent of the slots are in private 
providers and Head Start sites. But, the bottom line with that 
is, you need to hold all programs to the same exact high 
standards and provide the support for teachers in those other 
settings to improve their credentials and improve the program 
quality.
    Ms. Benso. And for Dr. Ackerman's benefit and the 
communities' benefit, that's exactly what we're doing in 
Pennsylvania. What, Todd, almost 70 percent of our program 
slots in pre-K are in community-based providers.
    Senator Casey. Todd, do you have anything to say?
    Mr. Klunk. I'd just like to add another group--or another 
angle of early childhood that's taken off lately is called 
``Mission: Readiness,'' and talk about that for a second. And 
it might resonate with some Members of Congress that they're 
actually now----
    Senator Casey. You said ``Mission: Readiness.''
    Mr. Klunk. ``Mission: Readiness.''
    Senator Casey. OK.
    Mr. Klunk. So, there's some retired generals from the 
Military who are making the stance that it's a national 
security issue, that 25 percent of our high school graduates 
are not eligible to enter the armed services. And that's for a 
variety of reasons, but--you know, they could be overweight, 
they could have a criminal record, but many of them lack just 
the preparedness that our military now requires.
    So, I throw that out there, as well, that it could be a 
national security issue, as well.
    Senator Casey. Well, thank you very much.
    I know we're almost out of time. I was going to do 
something that never happens in Washington--you can't tell 
anyone I did this--but we might have time for one question from 
the audience. Anybody? Anybody who wants to ask a question? No 
hands are going up.
    Ma'am, right here.
    Voice. What are the biggest obstacles that you would face 
now, as a Senator, in trying to get--I think you said $9-
billion funding?
    Senator Casey. Yes. I think--funding is one big obstacle, 
for sure, when you have the kind of fiscal situation we have. 
Obviously, in Washington, budget balancing isn't always the 
order of the day, and we now are in a position of deficits--
substantial deficits. So, it gets harder and harder to fund a 
program that would be a new commitment, and that makes it a 
challenge.
    The kind of year we're in, where you see the Congress 
struggling with healthcare, which is finally passed, but--you 
have a tough economy, where you have to continue to legislate 
on jobs and moving forward. I was noting that, here in Bucks 
County, the most recent job number, 8.1 percent unemployed, 
28,600 people. That's a lot of people unemployed, even though 
the rate might seem a little lower than parts of the country; 
the rest of the country's about 9.7. The State is about 8.9, so 
Bucks County is a little lower than those numbers. But, having 
almost 29,000 people out of work is a compelling reason to keep 
our eye on job-creation strategies.
    So, you have a number of major initiatives that are making 
it difficult for us to spend the kind of time we need to spend 
on this reauthorization process. So, that obviously is another 
challenge.
    But, I think it's mostly a question of funding. I think the 
commitment is there, even if Democrats and Republicans would 
disagree on the extent of commitment to early education, I 
think there's a pretty broad bipartisan belief that we ought to 
make these investments in early learning, because a lot of 
those CEOs are telling us, ``Invest in early learning and you 
get a better GNP. Invest in early learning, you get a better 
workforce, you get a better economy.'' The folks saying that 
aren't all Democrats. There are a lot of Republican CEOs who 
believe that, as well. But, I think it's mostly a funding 
question, in terms of an impediment or a challenge, as well as 
the kind of year we're in, in a tough economy, with other 
issues making it difficult to legislate.
    Well, with that, I know we've got to go, but maybe we can 
take some questions on the way out, because I know the hour is 
coming.
    Thank you very much for everyone, not only your presence 
here, but for changing the time by half an hour to make a 
change in my schedule. Thanks very much, everyone.
    This hearing is adjourned.
    [Whereupon, at 12:58 p.m., the hearing was adjourned.]






</pre></body></html>
